<html>
<title> - OVERSIGHT HEARING TO REVIEW PREVIOUS FISCAL YEAR AND LOOK AHEAD TO THE UPCOMING YEAR HEARING I Wednesday, September 20, 2006 House of Representatives, Committee on Veterans Affairs, Washington, D.C. The Committee met, pursuant to call, at 10:30 a.m., in Room 334, Cannon House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding. Present: Representatives Buyer, Brown of South Carolina, Miller, Bradley, Brown-Waite, Filner, Snyder, Michaud, Herseth, Berkley, Salazar. The Chairman. Good morning. I would like to welcome everyone here this morning. Get the doors for me, thank you. By way of housekeeping, between 10:45 a.m. and 11:00 a.m., there will be a question of consideration, so it looks like we will have one 15-minute vote. After this vote, we will then move to approximately one hour of debate on the rule, the Federal Election Integrity Act of 2006. That will occur approximately between 12:15 and 12:45, and would be the second series of votes. Just to let everyone know. I would like to welcome the new commanders here. You are beginning a year of well-earned opportunity after many years of faithfully serving veterans within your organization. I look forward to a constructive and positive year ahead. Last November, after meeting with your organizations at Carlisle Barracks, just north of the Gettysburg Battlefield, I announced a decision to enhance the way the Committee develops its budget views and estimates. This decision was to reform the way we gather the views of veterans' service organizations and military service organizations. Your members have a great store of invaluable insights that deserve even greater consideration. As a Subcommittee Chairman, I saw myself how the process of hearings held after we had submitted our views and estimates for the VA to the Budget Committee had effectively, for years, silenced your voice by positioning the testimony of VSOs and MSOs after the fact. The status quo I didn't believe was working for veterans, because it made you a critic after the fact, so we changed that process. Last February, before we developed the fiscal year 2007 views and estimates, the Committee heard from 19 VSOs and MSOs, some of whom we had not heard from before. And it was powerful. It represented a significant increase in access to this Committee at a key point in the budget cycle. When I discussed accelerating these budget and legislative hearings into February, I also said that we wanted to meet again in September to review the fiscal year just ending and to look forward to the next year. The timing of a September hearing is auspicious because the administration is now beginning to develop its next year budget request. I compliment the former American Legion National Commander, Tom Bock, because he championed to me the Legion's approach</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
              OVERSIGHT HEARING TO REVIEW PREVIOUS FISCAL
               YEAR AND LOOK AHEAD TO THE UPCOMING YEAR

                               HEARING I
Wednesday, September 20, 2006
House of Representatives,
Committee on Veterans Affairs,
Washington, D.C.





The Committee met, pursuant to call, at 10:30 a.m., in Room 334, Cannon 
House Office Building, Hon. Steve Buyer [Chairman of the Committee] 
presiding.


Present:  Representatives Buyer, Brown of South Carolina, Miller, 
Bradley, Brown-Waite, Filner, Snyder, Michaud, Herseth, Berkley, 
Salazar.


The Chairman.  Good morning.  I would like to welcome everyone here this 
morning.  Get the doors for me, thank you.


By way of housekeeping, between 10:45 a.m. and 11:00 a.m., there will be 
a question of consideration, so it looks like we will have one 15-minute 
vote.  After this vote, we will then move to approximately one hour of 
debate on the rule, the Federal Election Integrity Act of 2006.  That 
will occur approximately between 12:15 and 12:45, and would be the 
second series of votes.  Just to let everyone know.


I would like to welcome the new commanders here.  You are beginning a 
year of well-earned opportunity after many years of faithfully serving 
veterans within your organization.  I look forward to a constructive and 
positive year ahead.


Last November, after meeting with your organizations at Carlisle 
Barracks, just north of the Gettysburg Battlefield, I announced a 
decision to enhance the way the Committee develops its budget views and 
estimates.


This decision was to reform the way we gather the views of veterans' 
service organizations and military service organizations.  Your members 
have a great store of invaluable insights that deserve even greater 
consideration.


As a Subcommittee Chairman, I saw myself how the process of hearings 
held after we had submitted our views and estimates for the VA to the 
Budget Committee had effectively, for years, silenced your voice by 
positioning the testimony of VSOs and MSOs after the fact.  The status 
quo I didn't believe was working for veterans, because it made you a 
critic after the fact, so we changed that process.


Last February, before we developed the fiscal year 2007 views and 
estimates, the Committee heard from 19 VSOs and MSOs, some of whom we 
had not heard from before.  And it was powerful.  It represented a 
significant increase in access to this Committee at a key point in the 
budget cycle.


When I discussed accelerating these budget and legislative hearings into 
February, I also said that we wanted to meet again in September to 
review the fiscal year just ending and to look forward to the next year.  
The timing of a September hearing is auspicious because the 
administration is now beginning to develop its next year budget request.  
I compliment the former American Legion National Commander, Tom Bock, 
because he championed to me the Legion's approach--that the American 
Legion felt that they had separated themselves from other veterans 
groups by presenting their information to the Committee in the fall, as 
the administration was developing its request.  That approach made a lot 
of sense, and we have adapted and augmented it.


The Armed Services Committee receives the testimony from the Chairman 
and the Joint Chiefs in the spring, prior to budget views and estimates, 
and then they bring back the Chairman and the Joint Chiefs in the fall, 
for a look-back/look-ahead.  And I think adapting that same process will 
be very important.


As we look at the budget cycle, you can see that we have opened up this 
access to the congressional and the administration's budget process at 
uniquely responsive points in the cycle.  So, what we have today is the 
opening of the Fiscal Year 2008 budget process.


This is a war budget.  The country is at war and faces severe demands on 
its fiscal resources.  Yet this is also a budget cycle that reflects a 
decade of unprecedented growth and support for veterans.  The VA budget 
has nearly doubled in ten years.  Reflecting that support, VA has earned 
a reputation for high-quality health care.


I can also recall, when I first arrived here in Congress, in 1993 and 
1994, there were flatline budgets in the VA, and I can also recall some 
horrific cases where appropriators took money out of the VA to fund 
other domestic programs.  We have not seen that in the last 12 years.  A 
nearly doubled budget, and quality product do not, however, mean there 
are not significant challenges.


The VA Secretary before this Committee took ownership of the budgetary 
process that we exposed had flaws in the inputs within the modeling.  It 
was reflected in his strong fiscal year 2007 funding.  Yet, a perennial 
challenge to us is the ghost population that moves in and out of the VA 
health care system.  Sometimes using the VA, sometimes opting for 
TRICARE, sometimes using their HMO, they move in and out of the systems.


Simply plugging a few numbers into a capitation spreadsheet does not 
address this type of complexity. Discretionary funding gives us the 
responsiveness to do correctly that which is hard; that which is 
difficult, but which must be done right.


Comparatively, a quote, ``assured,'' or mandatory health care funding 
model, according to the Congressional Budget Office, would cost nearly a 
half a trillion dollars over ten years--half a trillion.  That would be 
a costly experiment. In contrast, the strong discretionary budgets of 
the past decade, have proven responsive to change.  With strong funding, 
we should expect good programs. 


Yet, the seamless transition of servicemembers entering the VA system is 
still not where it should he.  Last month, Secretary Nicholson, Chairman 
Boozman, Mr. Salazar and I went to Kuwait, Iraq and Germany to assess 
the continuum of health care from the medic, or a Navy corpsman, all the 
way to level 4 medical facility.  We were impressed by the quality of 
care and the total integration and teamwork within the armed services.


Yet, between DoD and VA we still have a gap.  Wounded GIs arriving at 
Landstuhl Medical Center minutes after we arrived had paper medical 
records on their chests.  Largely because of the Pentagon's foot-
dragging, the VA and DoD still do not have a truly interoperable system 
of electronic medical records.  That is not seamless, and we can do 
better.


The recent theft of personal data belonging to millions of veterans has 
shown the utter necessity that VA and every government agency with 
sensitive data must have centralized management over information 
technology, information policy, and information security.  IT is the 
organization's central nervous system.


I appreciate the work of Mr. Filner, and all members of this Committee 
in the many hearings that we held, exposing part of the problems.  But 
we have also moved toward a solution, and I want to thank the bipartisan 
work this Committee had done.


I appreciate those of you who worked also with us on this issue, and I 
am also disappointed with those who said that it was too hard, and it 
was outside of their lane. Because we all have to accept, in this one.


And with regard to the organizations, if you are outraged by the lapses 
in security and unnecessary risks to your members and our veterans, then 
join with me in dislodging the status quo and doing the right thing for 
our veterans.


Many of you also cited the disability claims backlog in  in your written 
testimony.  This issue is the elephant in the room.  The total backlog 
exceeds 800,000 and is climbing.  I compliment the Task Force on 
Accountability that I formed. I will be meeting with them here within 
the next 10 days. Some of your organizations are members of this task 
force.  I formed this task force to examine issues across the VA--not 
just VBA--that can improve the claims process. Timely and accurate 
claims decisions are as important to America's veterans as the delivery 
of high-quality care.


Some, though, think that if we bring lawyers into the process that it 
will solve the problem.  I am apprehensive, but I want to be a good 
listener, and I want to hear from all of you on that issue, because the 
Senate has passed the measure, and have given it a top priority for us 
as we negotiate these bills here.  And so Mr. Filner and I, and members 
of the Committee, need to hear your views.


So ladies and gentlemen, these issues are not going away.  They are at 
the heart, and my top three priorities as Chairman right now, are number 
one, caring for veterans who have the service-connected disabilities, 
those with special needs, and the indigent; two, ensuring a seamless 
transition from military service to the VA.  It is a very encompassing 
issue.  And I agree with the VFW's testimony.  It is a lot more than 
just computer systems.  And third, providing veterans every opportunity 
to live full and healthy lives.


These are my top priorities, and I look forward to hearing yours.


Before we begin, on behalf of the Committee's members and staff, I 
extend appreciation for the enduring contributions made by your 
membership, your auxiliaries and your families.  You make a great 
difference in the tone and tenor of our own country.  We are at war in 
two theaters and still have responsibilities globally.  Our men and 
women in uniform are performing their duty magnificently.  They are 
coming home with the simple expectation that we will be there for them.  
It is up to all of us to help these returning servicemembers transition 
back into civilian life.


The VA has its structure, but personal contact, which is your strength, 
plays a tremendous role.  When you put your arm around the young lance 
corporal just back from--you name the province, name the country--you 
are also at the tip of the spear, and you can help them in many ways.  
The intangible is also equally as important as the tangible.  So I want 
to thank you.


[The statement of Mr. Buyer appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


The Chairman.  I now recognize Mr. Evans.  If he has an opening 
statement, it will be submitted into the record. I now recognize the 
acting Ranking Member, Mr. Filner, for his statement.


Mr. Filner.  Thank you Mr. Chairman, and I ask to put my full statement 
in the record.


The Chairman.  No objection.  So ordered.


Mr. Filner.  And I do associate myself with your comments on this 
Committee's work, and hopefully the Congress's work on cyber security in 
the VA.  We had millions of veterans worried, scared, about what would 
happen, and I think we came out with a better policy at the end.  I hope 
the House and the Senate will act on it.


However, I cannot associate myself with remarks on the role of the VSOs 
in that process. I am glad you are here today.  Better late than never.  
The Chairman said the timing is `` auspicious''  that you are here. 
Well, it is auspicious because all your members are not here with you, 
which, during the joint hearings that we have had for many, many years, 
people felt a part of the process, and your membership is now not part 
of the process.


We are also at a very inauspicious time.  We haven't passed this year's 
budget, the coming fiscal year's budget yet for the nation.  So, to hear 
your views on next year, when nobody here is thinking about the budget 
process next year, is not at all timely.  The enhancement that you would 
bring is by being involved at the beginning, middle, and end of the 
process; not at some strange time when Members are not thinking of next 
year's budget.

You ought to have a chance for your membership to see this Committee in 
action.  That is what democracy is all about.  We should work with you 
to make the scheduling changes, so you have a larger impact, and have 
your members here with you.


What troubles me right now about our process, aside from the way you 
were excluded from it, is that you have to trudge up here at any time of 
the year, hat in hand, begging for money.  I am sure I am not the only 
one who finds this is not just ironic but shameful.  It is long past 
time to place all veterans' funding where it belongs, in the mandatory 
category, so that each year the Department of Veterans Affairs knows how 
much it will have and can forecast and plan better.


More importantly, veterans of all generations can have greater assurance 
that their health care will be there when they need it.  The Chairman 
called it, the "war budget."  Yes, we are at war, and taking care of our 
veterans is part of the cost of war, and should be included in any war 
budget.


A bill written by Lane Evans, of which many of us are proud cosponsors, 
would provide funding to meet increased medical inflation and responsive 
to enrollment numbers.  And those numbers should include all eligible 
veterans.  We must bring back into the VA health care fold those 
veterans whom this administration is now barring.  It is more than a 
quarter million, so far, many of whom are combat decorated, who have 
health problems deemed unrelated to their service, and who might be 
unable to afford private health care.  They too deserve to use the 
system established for veterans and shouldn't be excluded simply because 
they make a modest or even higher income.  When they took the oath, we 
didn't ask how much money they made.  Their good health shouldn't be 
incumbent upon some arbitrary income level now.



Congress intended that this be a temporary management tool for the 
Secretary, for a single budget cycle, not to be perpetual as this 
administration seems to intend.


The assurances that come with mandatory funding would be in stark 
contrast to the embarrassing charade we call the budget process today, 
and to the current system of care, under which this administration is 
not dropping its effort to make veterans pay more for their care, rather 
than asking for needed resources.  It makes thousands wait longer than 
they should for clinical appointments.  It is failing to appropriately 
address the mental health requirements of servicemembers returning from 
Iraq and Afghanistan, as well as past generations of veterans, thumbing 
its nose at the statutory requirements of long-term care and the needs 
of our older veterans.


The administration has aldo sought cuts in traumatic brain injury care 
at the height of a war that is producing more brain-injured veterans 
than ever before.  And we are failing to commit adequate staff and 
resources to the counseling programs.


All this, as I said previously, as the VA has turned away a quarter 
million veterans who wanted to enroll.


The supplemental request last year illustrated just how flawed the 
process is.  VA had to request around $3 billion more to cover expenses 
not in the 2005 and 2006 budgets that we passed.  The Secretary told us, 
in this hearing room, that the reason that they messed up is because 
their formulas did not take into account that we had a war going on.


The Independent Budget, which many of you are involved in, knew exactly 
what the figure ought to be, knew what the administration should have 
given, and what the Congress failed to make up for.  And today, we have 
the VA rightfully touted in many ways for the exceptional quality of its 
clinical care and use of technology.  It has come a long way from some 
of the stereotypical images of the '60s or '70s, of many patients 
waiting and dirty wards, receiving substandard care from uncaring 
providers.


It is now on the cutting edge of health care in this country and in the 
world, and that is very commendable.  But that system should not have 
delayed care, rationing of care, or any problems with access or quality.  
We do have the resources as a nation to adequately fund health care for 
those who have borne the battle and have given us our freedom.


I am pleased that virtually all the organizations here today support the 
passage of mandatory funding for veterans' health care, and I can assure 
you that we will continue to press for this in the next Congress.


Let me just say one word on the so-called ``core veteran issue.''   I 
don't know if that is the same ``ghost population''  that Mr. Buyer 
referred to, but some have claimed that there are two classes of 
veterans: those that are core veterans and others.  Sure, there are 
veterans that have a greater need for VA services and should have a 
higher priority.  We will always keep that in mind and fight for that.  
But all veterans should have access to VA health care. A veteran who 
scaled the cliffs of Normandy, or who walked point in the jungles of 
Vietnam, or who endured the frozen reservoirs of Korea, or served in the 
Persian Gulf and was fortunate enough not to be wounded or disabled is 
just as much a veteran as any other veteran, even if his health care 
needs are not as a result of that service, and no matter what their 
income is.  That veteran deserves access to our health care system, and 
we--certainly on this side--will fight for that.


There are a lot of other issues that you are going to talk about today.  
I have referred to them in my longer statement that is part of the 
record.  Let me make just one last comment.


We have an administration that says ``support our troops,''  ``support 
our troops,''  and we all do.  Supporting of troops means to support 
them when they come home, also. Right now, in my medical center in San 
Diego, we have almost a thousand veterans on a waiting list.  If you 
come home from Iraq and Afghanistan, you may wait a year for a dentist 
or some other specialty treatment.  If you have PTSD, you may have not 
recognized it, DoD may not have recognized it, VA hasn't recognized it, 
the family hasn't recognized it, and we are going through the same 
process of having veterans with mental scars that are not treated, as we 
did with Vietnam.


We have veterans coming back with PTSD, their families not understanding 
it, family violence, domestic quarrels, drinking, drug abuse, loss of 
jobs, homelessness, suicides. Hundreds of suicides of those coming back 
from Iraq and Afghanistan.  That is a tragedy.  We should never have 
allowed the Vietnam vets not to be properly cared for, and we still have 
a chance to rectify that mistake, no matter how long ago it was, but we 
are repeating the same error today.


Our budget is $80 billion for the VA.  Our national budget is $3 
trillion.  Our debt is $8 trillion.  We have enough money in this 
country to care for all of those who have returned from battle, whether 
it is from Iraq, Afghanistan, or World War II.  Let us do the job right.


Thank you, Mr. Chairman.


[The statement of Mr. Filner appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


The Chairman.  Thank you.  All members who have an opening statement may 
submit it for the record.


Today, we will hear from several commanders, presidents, and 
representatives of veterans' service organizations. First, representing 
the Veterans of Foreign Wars of the United States is the Commander-in-
chief, Gary Kurpius.  Did I get it right, Commander?


Mr. Kurpius.  Yes, thank you.


The Chairman.  Commander Kurpius was elected in August 31, 2006, at the 
VFW's 107th national convention.  He is the first member to be elected 
to this office from the state of Alaska.  Commander Kurpius served the 
United States Army from 1967 to 1969.  In Viet Nam, he served with the 
541st Transportation Company, providing convoy security throughout the 
central highlands.  He was awarded the national Defense service medal, 
the Vietnam service medal with four bronze stars, and the Republic of 
Vietnam service medal.


In 1970, Commander Kurpius joined VFW Post 1539 in Babbit, Minnesota, 
where he became a life member in 1976.  He earned the title of All-
American Post Commander in 1977, and in 1983 was named All-American 
District Commander.


Commander Kurpius transferred to VFW Post 9785 in Eagle River, Alaska in 
1985, and is currently a life member of the VFW Post 9365.


Congratulations on this appointment.


Mr. Kurpius.  Thank you.


The Chairman.  Representing Amvets, the National Commander, Tom McGriff.  
Commander McGriff was elected National Commander of Amvets on August 20, 
2006, at the organization's 62nd national convention in Reno, Nevada.  
He joined the United States Navy in 1959, and was assigned to the USS--I 
am not going to get this right--


Mr. McGriff.  Tiru.


The Chairman.  Say it again?


Mr. McGriff.  Tiru.


The Chairman.  Tiru.  What is Tiru?


Mr. McGriff.  Tiru is an extinct fish that swam the ocean.


The Chairman.  Is a what?


Mr. McGriff.  It is an extinct fish.


The Chairman.  An extinct fish?  But it tastes really good?  All right.  
Dr. Snyder--all right, I will go with the doctor's opinion.  Wow, and 
this was a submarine?


Mr. McGriff.  Yes, sir.


The Chairman.  It didn't bother any of you that you were on an extinct 
fish?


Mr. McGriff.  All submarines at that period of time were named after 
fish.


Mr. Filner.  Yes, but not after extinct fish.


The Chairman.  Yeah, but what about extinct ones? Were you the only one 
that had that distinction?


Mr. McGriff.  No, there were several.  There were several.


The Chairman.  Wow.  Well, this was a World War II diesel-electronic 
submarine based in Pearl Harbor.


Mr. Filner.  Also extinct.


The Chairman.  Yeah, we don't have those diesels anymore.


He patrolled the coast of the Philippines, Hong Kong, and Japan, 
receiving the Armed Forces Expeditionary Medal for his role in 
skirmishes in the disputed islands in the Taiwan Strait.  Commander 
McGriff was subsequently assigned to the USS Ethan Allen, the nation's 
first-in-class Polaris submarine, which was armed with 16 nuclear 
missiles.


He is a life member of Post 76.  He has held many leadership positions 
at national, state, and local levels of Amvets.  He joined Amvets in 
1991, after spending more than 30 years in the United States Navy.  
Congratulations.


Mr. McGriff.  Thank you.


The Chairman.  Speaking for the Disabled American Veterans is the new 
National Commander, Bradley S. Barton. Commander Barton, a native of 
Indiana, enlisted in the United States Marine Corps in 1966.  In 1968, 
while serving as a member of the third Battalion 26th Army regiment, the 
Battle of Keh Sanh during the Vietnam War, he was severely wounded when 
shrapnel from an enemy mortar severed his spinal cord.


As results of his wounds, he was medically separated from the Marine 
Corps in August, 1968.  Following his retirement, Commander Barton 
earned his BS degree from Indiana University in 1973, and his law degree 
from Indiana University in 1982.  Commander Barton has also been very 
active in the DAV since joining the Indianapolis chapter three in 1975.  
He is a recipient of the DAV's Department of Indiana Meritorious 
Occupation Achievement Award in 1979, and was named by Indiana 
governor's Handicapped Hoosier of the Year for 1979.


He is also a member of several other veterans' organizations.  Commander 
Barton is currently membership Chairman of the DAV Chapter one in 
Portland, Oregon, where he and his wife live.


Testifying on behalf of National Commander of the Blind Veterans of 
America, Larry Belote, is Dr. Thomas Zampieri. Doctor served active duty 
as a medic in the United States Army in 1972 to 1975.  Upon completing 
physician assistant training, he served from September 1978 to August 
2000 as an Army National Guard physician assistant, retiring as major.


During this time, he was involved in several military training programs 
and schools, and is currently employed as the national director of 
government relations at BVA.  He was awarded his Ph.D. in political 
science from Lacrosse University earlier this year.  So congratulations.


Representing the Noncommissioned Officers Association of United States 
of America is Sergeant Gene Overstreet, NCOA's President.  Sgt. Maj. 
Overstreet entered the Marine Corps in June 1966.  He served with the 
third Marine division in Viet Nam.  Sgt. Maj. Overstreet also served as 
the Marine Corps recruit Depot in San Diego as a junior drill 
instructor, senior drill instructor, series gunnery Sergeant, and chief 
instructor.


Reassigned to drill instructor school, he was an instructor, drill 
master, and chief instructor.  He was later selected as the twelfth 
Sergeant Major in the Marine Corps in April 1991, and assumed the post 
on June 28, 1991.  Sgt. Maj. Overstreet retired from the Marine Corps 
June 1995.  He joined NCOA as vice president, membership recruiting, on 
May 1st, 2001, and accepted the position as president August 22 of 2003.


Welcome to all of you. Before we begin, we would like to-- do all of you 
have written testimony?


[All nod their head in the affirmative.]


Do you submit that written testimony into the record?


All acknowledge in the affirmative.  Without objection, it will be 
received in the record.  So ordered.


On procedural rules, each of you will have 10 minutes to present your 
testimony.  I will give you great latitude to get that in.  And in 
fairness, recognize others also are seeking to testify here today.  So 
when you see the light go off, just you will know what to do, and try to 
wrap up your statement.  And then membership will serve under the five- 
minute rule.


The VFW Commander, welcome, and you are recognized. 


STATEMENTS OF GARY KURPIUS, COMMANDER-IN-CHIEF, VETERANS OF FOREIGN WARS 
OF THE UNITED STATES; ACCOMPANIED BY TOM MCGRIFF, NATIONAL COMMANDER, 
AMVETS; BRADLEY S. BARTON, NATIONAL COMMANDER, DISABLED AMERICAN 
VETERANS;  TOM ZAMPIERI, PH.D., DIRECTOR OF GOVERNMENT RELATIONS, 
BLINDED VETERANS ASSOCIATION; SGT. MAJ. H. GENE OVERSTREET, USMC 
(RETIRED), PRESIDENT-CEO, NON COMMISSIONED OFFICERS ASSOCIATION



STATEMENT OF MR. GARY KURPIUS



Mr. Kurpius.  Thank you, Mr. Chairman Buyer, Ranking Member Filner, 
distinct members of this Committee.


As this nation's largest organization of combat veterans, the Veterans 
of Foreign Wars of the U.S. is dedicated to helping one another, working 
as a team, and doing what is right for all who have worn the uniform in 
the past, as well as for all who proudly wear it today.


I have charged the VFW with a mission of putting veterans first.  It is 
a mission you well understand.  This Veterans Affairs Committee is the 
only Congressional Committee with a distinct constituency.  You serve 
not the government or private business, but actual men and women, men 
and women who bravely served this country, protecting everything that 
America stands for.  It is an important mission.  It is a sacred 
mission.  It is one that must be taken seriously.


Looking back over the last year, I see many good things, but there have 
also been some huge bumps in the road.  First, let us look at the good.  
After the funding problems of the previous fiscal year, in which VA ran 
out of money due to poor budgetary modeling, the administration stepped 
forward and recommended a sufficient amount of money for veterans' 
programs.


Also, as your Committee formulated the budget recommendations, we were 
pleased that you listened to what we had to say.  You used our funding 
levels from the Independent Budget as part of your baseline.  We didn't 
get everything that we wanted, but it was a very good step, and we 
appreciate the serious consideration you gave to our views and your 
demonstrated commitment in moving them forward.


Despite the Committee's and Administration's attention, VA still does 
not have its budget for a fiscal year that begins in a few days.  This 
unfortunately is nothing out of the ordinary.  It has been the better 
part of a decade since VA has had a budget on time.  This is a major and 
continuous failure of Congress.


Mr. Chairman, you rightly want VA to operate more like a business, using 
best practices to efficiently care for veterans in a cost-effective way.  
Yet, how is VA to operate that way when the managers can't properly plan 
for the coming year?  No business, let alone one as large as the VA, can 
function without knowing their budget.  Yet year after year, Congress 
asks VA to do that.  That is directly at odds with how all of us want 
the VA to operate.


We have in the past called for changes to VA funding mechanism. The 
discretionary process as currently implemented does not work the way it 
should.  How can we accept that?  If this Congress is going to fail to 
live up to its obligation to provide VA sufficient money on time, then 
we need to modify the current funding process.  One of the highest 
priorities of the VFW is the health care and well-being of those men and 
women returning from conflicts overseas.  While the battles are ongoing, 
the actual individuals fighting are constantly changing, and each day 
sees the creation of hundreds of new veterans.  We have long argued that 
their care is part of the ongoing cost of war.  That fulfillment of that 
cost--a national obligation--is what this Committee is charged with 
overseeing.


One of the VFW's greatest concerns is the mental health of these 
returning servicemembers, and the effects it can have on their families.  
VA claims that they are making substantial progress in this area, but it 
is something that needs to be continuously monitored.  Making sure that 
these men and women get the counseling and services they need to 
transition back into society and to lead productive lives has a big up-
front cost, but it is something that, if left unchecked, will create 
many more problems down the road. Many of these problems, such as 
homelessness or mental illness, are things that no veteran should suffer 
from, especially because we can tackle it today.


Another important area that deserves increased attention is care related 
to blast injuries.  We must redouble our efforts in prosthetic research 
and servicing, and also on VA polytrauma centers.


We also strongly believe that more research and time must be spent on 
traumatic brain injuries.  We must learn more about these injuries and 
be mindful that some of these symptoms might not appear immediately.  We 
must be attuned to any long-term physical or mental impairments that 
these blasts create.  We must give these servicemen and women every tool 
they need to heal and become whole.


That the VFW can come before this Committee year after year after year, 
emphasizing the need for a seamless transition is a disappointment.  I 
am not sure that we can even point to signs of progress.  What is being 
done?  Where are the roadblocks?  Mr. Chairman, We need you, using the 
oversight powers of this Committee, to give us answers to these 
questions. We know that you share our frustration, and we urge you to 
make this a priority for the coming year.


What we are asking for, though, isn't just the mere ability of VA 
computers being able to speak to DoD's computers.  That is certainly an 
essential part, but it is more about giving these men and women a hand, 
and a seamless transition back into a productive society, with the 
skills and training they need to be the leaders of tomorrow.  That is 
going to require emphasis on education and training for real-world jobs.


At a hearing earlier this year, I am told that you offered to look into 
improving the benefits provided under the Montgomery GI Bill, but as of 
today, nothing has been passed into law.  As we look ahead, it is 
important that we focus on the benefits being provided to our 
reservists, especially as they continue to carry a large share of the 
burden of fighting in Iraq and Afghanistan.  These men and women are 
fighting as Active Duty troops.  We need to give them a benefit that 
recognizes their contributions by allowing them to take their MGIB 
benefits with them when they separate.  In this regard, we applaud your 
introduction of H.R. 6096, the Disabled War Families Education Act of 
2006.


Another important area that is integral to a seamless transition is an 
effective vocational rehabilitation office. The influx in service-
disabled veterans creates new challenges, especially when it comes to 
vocational rehabilitation and employment. A truly effective program will 
be focused on a goal of avoiding disability-related unemployability 
later in life, and that will allow the disabled veteran to build a 
career to provide for him or her as well as the veteran's family. We 
envision a program that will create skills that will help these heroes 
who have sacrificed body and mind, to overcome these obstacles over a 
lifetime of employment, not just to launch them with a few years of 
jobs.


Unfortunately, I must turn to an issue which has taken up much of this 
Committee's time, and which is of utmost concern for our 2.4 million 
members. The recent failure of VA to adequately secure veterans' 
sensitive financial and medical data is disgraceful.  To say that we are 
disappointed with the leadership of VA is an understatement.  It is 
especially distressing for our servicemembers fighting overseas to know 
that they and their families may be financially harmed because of 
mishandling of sensitive personal data.  The last thing they need to be 
worrying about on the battlefield is if their families are going to be 
okay, and if their credit is going to be ruined by a bunch of thieves.  
This is why we are very disturbed by the withdrawal of the 
Administration's offer to provide one year of credit monitoring 
services.  It is outrageous that the government would not err on the 
side of caution with potentially 27 million veterans and family members 
at risk, and a litany of data breaches coming to light.  We of the VFW 
are most gratified with how seriously this Committee has taken the 
problem, and that your series of hearings have focused on getting to the 
root of the problem and providing permanent solutions.  We would urge 
that you not relent in this most important effort. Looking forward, VA 
needs flexibility, the ability to adapt and change as technology 
transforms.  This Committee clearly needs to exercise rigorous oversight 
of VA to ensure that these sorts of disgraceful problems do not occur in 
the future, but oversight does not automatically mean micromanagement.


As we look forward, another major challenge confronting VA for the 
coming year, as has been the case for a number of years now, is the 
ineffective operation of the Veterans Benefits Administration. The 
claims backlog is a persistent problem, something my predecessors have 
highlighted every time they come before this Committee. That I can still 
sit here, citing an ever-growing number of cases highlights VA's 
inability to develop and implement a proper plan to tackle this problem.


VFW witnesses have always stressed that VBA's problem is, at its core, a 
problem with the quality of their decisions. By their own measurement, 
VBA commits serious errors on over 100,000 cases every year. These are 
not minor errors; they can affect the quality of the future lives of 
veterans and their families. VBA has no plan to address this problem, 
and we urge you to make it a focus of your oversight this year. Despite 
best efforts and intent, VA has been unable to manage its caseload, and 
the backlog swells daily. As the number of pending claims increases, the 
difficulties of managing the backlog and implementing solutions 
increases.


VA tells us that it takes several years for a new employee to get up to 
speed with the adjudication process. There are many complexities and 
technicalities, which make immediate mastery difficult. Speed and 
accuracy come with practice.  Yet, there is little continuity of funding 
within VBA.


What is the goal to make VA better?  What are the plans? It isn't just 
enough to throw money at these issues, a sentiment I am sure you on this 
Committee share.  But, the problems VA faces do, by and large, relate to 
funding.  We're not asking you to throw money into a pit.  Instead, we 
ask for VA to be run efficiently with proper oversight.  That is not too 
much to ask.  Above all, veterans must come first.


Before I conclude, I would like to discuss one related issue that is 
before your Committee, the Veterans Choice of Representation Act.  This 
bill would allow veterans to hire lawyers when first filing a disability 
compensation claim, something that they're prevented from doing now.  At 
first blush this sounds like a great idea, but it is something that the 
VFW is greatly concerned with.  In fact, at our recent National 
Convention, our membership voted in strong opposition to this proposal.  
Before embarking on the path which has brought me to this office, I 
served as a service officer in Alaska for over twenty years.  It is a 
profoundly rewarding job, and one that I look back on with great 
fondness.  There's a lot of satisfaction in helping a disabled comrade 
get treatment and compensation for his or her injuries.  I fear that 
passage of this bill would dramatically change the non-adversarial 
relationship for the worse.  The system, while not perfect, is intended 
to serve veterans sympathetically and efficiently at this initial level.  
This law, we fear, would result in less timely service of claims, and 
would provide program administrators with justification to ratchet back 
the service and assistance they provide, harming veterans who choose not 
to or cannot afford to spend money on a lawyer.


The problem with the current system and the backlog is not because of 
the lack of legal representation, but because a lack of funding.  The 
numbers we toss around for funding or caseload aren't just numbers.  
They are real people, people who have worn the uniform of this great 
nation, their survivors and their dependents.  It is sometimes hard to 
keep this fact in mind.  That is exactly why I've charged my 
organization with putting `` Veterans First.''  Everything the VFW does, 
and everything that this Committee undertakes must be done with this in 
mind.


I challenged the great men and women of the VFW to put `` Veterans 
First,''  and I charge you with the same, for they are who we truly 
serve, and who we must put first in our hearts and priorities.


Thank you for the opportunity to testify here today, and I will be happy 
to respond to any questions you may have.


[The statement of Gary Kurpius appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


The Chairman.  Thank you very much for your testimony. That was our 
second bell.  I will recess the Committee and we will return after this 
one vote to take up testimony.  The Committee stand in recess for about 
15 minutes.


[Recess.]


Mr. Miller. [Presiding]  I call this hearing back to order, taking over 
the chair in the absence of the Chairman, who had to go to Energy and 
Commerce to make a vote.  He will be back sometime a little later.  We 
appreciate your indulgence, as we all had to go to a vote.


Next up, Amvets' National Commander, Mr. Tom McGriff, the man who spent 
many a day aboard a submarine named after an extinct fish.  You are 
recognized, sir. 


STATEMENT OF TOM MCGRIFF



Mr. McGriff.  Thank you, Mr. Chairman, members of the Committee.


Earlier this month, we paused to remember those who lost their lives on 
September 11th.  The attacks against the World Trade Center, the 
Pentagon, and the failed attempt in Pennsylvania began a new era in 
American history.  Since that horrible day, this nation has been engaged 
in a different kind of war.  When our troops return home with physical, 
psychological wounds, we have a great moral obligation to care for them.


I sincerely believe that an elected official has no greater duty than to 
provide for those who have bravely defended our nation, and our 
freedoms.  Mr. Chairman, the focus of today's hearing is to look at what 
the Committee has accomplished this year, and look ahead to next year.  
We certainly thank the Committee for its work in passing measures aimed 
to restrict protest at military funerals, enhance servicemen's life, 
provide veterans with a COLA, improve veterans' housing, and strengthen 
the VA's information technology, and other matters.


But I think it is more important to look at where we are today and 
examine the areas that need to be improved.  I will focus my remarks on 
four issues: assured funding, veterans' mental health, the claims 
backlog, and the veterans' attorney legislation.


First with assured funding.  Every time we send our young men and women 
into combat, we are asking them to make a huge sacrifice.  Their lives 
and their health care are the real follow-up cost to any war.  The VA 
budget for fiscal year 2007 was a step in the right direction, but it 
does not go far enough to meet the needs of all veterans.  Members of 
Congress touted that this is the first year the Independent budget has 
been used to tabulate the VA's budget.


I ask why?  The Independent budget has been in existence for over 20 
years, and has proven time and time again to be the most accurate 
estimate of VA's funding requirements.  If you are to be serious about 
meeting the needs of veterans, use the Independent budget figures in 
fiscal year 2008.


Veterans' health care is an ongoing cost of war, and should be treated 
as such.  Access to quality health care has been compromised by budget 
shortfalls, rising medical costs and a sharp increase in demand for 
services.  The current discretionary funding formula pits VA against 
other agencies and billions in pork barrel projects.  We believe the 
system needs to be fixed through assured funding.


Contrary to some beliefs, Congress would not lose oversight if assured 
funding was put in place.  Congress would retain its supervision of VA 
programs and additionally, VA would still be held accountable for how 
its funds are being spent and how well its programs are managed.  In 
fact, most federal health care programs are funded through mandatory 
funding.  Isn't it only fair to put our nation's sick and disabled 
veterans on the same level as these other entitlements?


Second, our veterans' mental health services.  Operation Enduring 
Freedom and Operation Iraqi Freedom have resulted in the deployment of 
hundreds of thousands of troops since 2002. Approximately one third of 
returning military personnel will need mental health treatment.  For 
those who served in Iraq, 35 percent requested mental health services 
one year after deployment.  We have learned from past conflicts that war 
has long-lasting psychological effects.  But getting a handle on PTSD 
and other disorders is tremendously difficult.  The effects vary for 
each person.  Some never show symptoms, others show them immediately.


Unfortunately, VA has had an uneven record of service to veterans with 
mental health needs.  VHA must invest resources in programs that aid 
patients' recovery rather than managing and treating symptoms.  VA 
should develop a continuum of care that includes case management, 
rehabilitation, peer support, work therapy, and other support services 
with an overarching goal of recovery.  Additionally, VA must work hand-
in-hand with DoD to help returning servicemembers get their mental 
health treatment.


We applaud Congress for putting into place special safeguards to ensure 
VA gives priority to veterans with idle illnesses.  But more needs to be 
done.  I encourage this Committee to continue its efforts to help VA 
assist veterans on the long road to recovery.


Third, our claims backlogs.  The VA continues to experience challenges 
processing veterans' disability compensation and pension claims.  The 
backlog is at a critical stage, with significant errors numbering 
100,000 per year.  The average claim takes more than six months to 
complete, and appeals of denied claims can take as long as three years.


Also, many experienced claims processors are reaching retirement age.  
According to VBA, it takes two to three years of experience for claims 
processors to achieve a fully productive level of expertise.  Currently, 
about half of VBA's staff has 3 years or less of decision-making 
experience.  VBA needs to tackle this problem now, and Amvets believes 
VBA is capable of reducing backlogs and improving error rates, but only 
if and when new technology, better training, more staff, and real 
accountability is implemented. That takes time and money.  Not budget 
cuts and staff reductions, which have been proposed in recent budgets.


In fact, Amvets is so passionate about looking at claims and other VBA 
challenges, we are hosting a National Symposium for the Needs of Young 
Veterans in mid-October.  The Symposium's goals are to reach a consensus 
on the key problems facing veterans, offer solutions that will modify 
the system, and suggest how to enhance benefits for the National Guard 
and Reservists.  In November 2006, the Symposium will publish an action 
plan that will prioritize the steps needed to provide a modern benefits 
program and an effective delivery system.  If you are concerned about 
the future of veterans' benefits in America, I encourage you to support 
us in this endeavor and study our action plan.  I am confident the 
symposium will provide Congress and VA with a report that will improve 
the system now and into the 21st century.


Lastly, the Veterans Choice of Representation Legislation.  Amvets has 
serious concerns about the House and senate bills.  As you know, the 
Senate passed their version with a number of veterans benefits 
enhancements attached to it.  We support the added language now 
contained in the Senate bill, except the attorney provision.


VSOs provide, free of charge, excellent representation to any veteran, 
member or not, within the community.  Amvets has specially trained 
representatives stationed around the country to assist veterans wanting 
to file a claim.  We have access to the VA system, know exactly who to 
contact, and are acquainted with the people who make the decisions.  We 
feel we provide a greater and more efficient service than any lawyer 
could.


If attorneys are allowed into the system, it would overturn veterans' 
protections that have been in place since the Civil War.  It will not 
improve the procedure, or make it more efficient; just the opposite 
would be true.  The benefits system was designed to be an open, informal 
process. Adding lawyers to the mix will create a potentially hostile 
situation between the veteran and the VA.  Furthermore, the VA can't 
handle lawyers.  Most lawyers do not have an understanding of veterans 
law, the vast VA bureaucracy, or even know what is rightfully due to the 
veteran.  VA will no doubt be bombarded with calls from legal aids 
wanting to know exactly how the VA works and how to navigate the system.  
VBA is financially strapped as it is, and claims backlogs continue to 
grow without this added burden.


I suggest the Committee explore ways to reduce pending cases by fixing 
staff shortfalls, improving training programs, and holding claims 
processors accountable for the quality of their work.  This is what is 
going to reduce the backlog, not attorneys.


One last point I will mention, Mr. Chairman, is the yearly VSO 
testimony.  As you know, the VSOs traditionally presented our agenda 
before a joint meeting of Veterans Affairs in the springtime.  Last 
year, joint hearing were dissolved in favor of a full Committee hearing, 
but it was held just days after the President released his budget 
proposal.  This is clearly not enough time to review a budget as complex 
as the VA's.  While funding for VA is one of Amvets' top priorities, our 
annual testimony addresses issues that go above and beyond the matters 
of just the budget.


I am certain the Committee wants complete and accurate views from the 
veterans community when it looks at the agenda items for a new Congress, 
which is why we ask these important hearings continue next year.  But 
please schedule them in March, so we can provide you with a thorough 
assessment from our organization.


In closing, Mr. Chairman, Amvets looks forward to working with you and 
the Committee to ensure the earned benefits of America's veterans are 
strengthened and improved. This concludes my testimony.  Thank you again 
for the opportunity to appear here before you today, and I will be happy 
to answer any questions that you may have.


Mr. Miller.  Thank you, Mr. McGriff.  We appreciate your testimony.


[The statement of Tom McGriff appears on p.  ]



STATEMENT OF BRADLEY S. BARTON



Mr. Miller.  We will move to Bradley Barton, National Commander, 
Disabled American Veterans.  Commander, you are up.


Mr. Barton.  Mr. Chairman, members of the Veterans Affairs Committee, on 
behalf of the more than 1.3 million members of the Disabled American 
Veterans, I am honored to appear before you today to discuss the state 
of Veterans Affairs for the current fiscal year and upcoming year.


For more than 30 years, I have been active in supporting DAV's mission 
of building better lives for our nation's disabled veterans and their 
families.  And since my retirement from the legal profession, fulfilling 
that mission has been a full-time job for me.  My fellow disabled 
veterans have placed their confidence in me as the National Commander, 
to carry their message to Congress and to the American people, and I 
will not let them down.


As the current fiscal year draws to a close, we hear from VA officials 
around the country that health care funding shortfalls continue to 
hamper their ability to care for sick and disabled veteran.  They are 
unable or unwilling to hire the needed medical staff in large part 
because of problems with their current budget process.  But just days 
before the new fiscal year, the VA still does not have an appropriations 
bill.  For years, the DAV has voiced our concerns that the current 
budget process is a failure.  It fails to serve veterans, it fails to 
serve the VA, and it fails the American taxpayer.


It is impossible for the VA to plan for the coming fiscal year, when it 
does not know what its budget will be, or when it will get its 
allocation.  And that is no way to run the second largest federal 
agency, with the country's largest integrated health care system.


The VA simply cannot function properly under those conditions.  Although 
the proposed VA budget for fiscal year 2007 comes close to the levels 
recommended by the DAV and other co-authors of the Independent Budget, 
an additional $2 billion in discretionary funding is needed.  We are 
also very concerned about another tightfisted budget for fiscal year 
2008, and its impact on the needs of our nation's veterans.


For years, the DAV has been fighting to make sure that veterans' health 
care is adequately funded, and that those funds are available on the 
first day of the new fiscal year. Chairman, I call upon you to join the 
DAV and the entire veterans community in an open and frank discussion of 
the current VA appropriations process, and how that process might be 
improved to better serve our nation's sick and disabled veterans.


I will now turn my attention to an issue of great importance to the DAV, 
and those veterans seeking benefits from the VA.  Recently, the Senate 
passed S. 2694, which would permit attorneys to charge veterans for 
services rendered in the preparation, presentation, and prosecution of 
their VA claims.  There are also two bills in the House that would allow 
attorneys to charge veterans a fee to represent them.  H.R. 4914, 
introduced by Congressman Lane Evans, and H.R. 5549, introduced by 
Congressman Jeff Miller.


The DAV firmly believes that allowing attorneys to charge a fee to 
represent veterans would not be in the best interests of the veterans, 
and would be detrimental to the VA as well.  As an attorney and a 
veteran, who has considerable experience with the VA claims process, it 
is difficult to see how allowing attorneys to charge for their services 
will improve the situation.


What ails the VA claims system has nothing to do with who veterans 
choose to represent them.  The real issues are the timeliness and 
accuracy of the decisions handed down by VA claims workers.  I can 
understand why some attorneys advocate changing the system, and some 
veterans honestly believe that they would receive better representation 
by attorneys.  But empirical data from the Board of Veterans' Appeals 
tells that attorneys have a lower average allowance rate than veterans' 
service organizations.


Veterans who fought for our country should never have to fight their 
government to get the benefits a grateful nation has provided for their 
sacrifices and service.  Congress itself intended that these benefits be 
provided with a minimum of difficulty.  It is important to understand 
the differences between the VA process and litigation.  In the VA 
process, its employees counsel veterans on their eligibility for 
benefits.  The VA will assist the veteran in completing and filing the 
relatively informal application for benefits. The VA also takes the 
initiative to advance the claim through the process, and Congress placed 
the duty on the VA to ensure that all laws and regulations pertinent to 
the case are faithfully applied.


Admittedly, the VA has often fallen short.  The VA sometimes denies 
veterans claim erroneously, even arbitrarily.  Veterans sometimes do 
have to fight the bureaucracy to obtain what they are clearly due.  
However, regular involvement of lawyers in the claims system would turn 
the informal pro-veteran process into a formal, legalistic, and more 
adversarial one.


The VA would have to devote a whole legion of employees just to review 
attorney fee agreements, for example.  And the overall increase in 
administrative costs might have to be paid for by reducing veterans 
services elsewhere.  A far better use of the VA's already limited 
resources would be to hire more claims workers, and provide intensive 
training to improve the quality, as well as the timeliness, of 
decisions.


The VA also must enforce uniform quality standards through more 
effective management, and exercise real accountability at all levels.  
More timely medical examinations and better information sharing between 
the Veterans Benefits Administration and the VA health care facilities, 
are also needed.


Only when the VA has taken these steps, and Congress provides the 
necessary resources, will veterans receive the level of service they 
deserve.  The VA's objective and its duty is to provide timely, accurate 
decisions on veterans' claims.  As you know, Congress deliberately 
designed the VA administrative claims process to be non-adversarial, and 
veteran-friendly.  Disability compensation and other benefits for 
veterans and their families should go to the intended beneficiaries, not 
lawyers.


By passing a measure allowing lawyers to charge for claims assistance, 
this Congress would be admitting that it is unable to perform its 
oversight role to ensure that the VA claims system works as intended.  
The argument that veterans should have a choice to be represented by a 
lawyer ignores the intent of Congress that the VA provide all entitled 
claimants with all benefits affordable under the law.


As an attorney, I know firsthand how lawyers are trained, and how they 
think and react in the legal arena. Believe me, this is not what you 
want for the VA claims process.  Enactment of these bills would 
profoundly change the claims process to the detriment of the veteran.  
We believe there is a potential for wide-ranging, unintended 
consequences, that will benefit neither veterans, nor the government.


DAV delegates to our national convention in Chicago, August 12 through 
15, unanimously passed the resolution opposing passage of this 
legislation.  The DAV does not stand alone in its opposition to these 
bills.  This legislation is also opposed by the veterans of foreign wars 
of the United States and Amvets, and several other military and veterans 
organization.  And I remind you, the VA itself is opposed to this ill-
advised change in the law.


We therefore call upon the members of this Committee to oppose the 
legislation that would remove the restriction on lawyers charging a fee 
to prepare, present, and prosecute claims for veterans' benefits.


And on another very important matter, Chairman, I hope that you will 
give serious consideration to the DAV's request to present our national 
legislative agenda to a joint session of the House and Senate Veterans 
Affairs Committees on February 27, 2007.


Mr. Chairman, this completes my testimony.  Thank you for allowing me 
this opportunity to appear before you on behalf of the Disabled American 
Veterans to share our views on the state of Veterans Affairs.  Thank you 
also for all that your Committee has done, and all that you will do for 
veterans in the future.


[The statement of Bradley S. Barton appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


STATEMENT OF THOMAS ZAMPIERI, PH.D.



Mr. Miller.  Thank you, Mr. Barton.  We appreciate your testimony today.  
And continuing to move along, because we have a pretty healthy list, we 
would like to ask the director of government relations for the Blinded 
Veterans Association, BVA, Dr. Thomas Zampieri, if you would please 
proceed.


Dr. Zampieri.  Yes, sir.  Mr. Chairman and members of the House Veterans 
Affairs Committee, on behalf of the Blinded Veterans Association, we 
appreciate this opportunity to present our views today, and a look-back 
at 2006, and the priorities for 2007.


This year, BVA has become increasingly frustrated by the lack of 
significant changes in the VA's ability to provide a full continuum of 
blind outpatient rehabilitative services. Before getting into that, 
though, I want to bring up a couple cases that have caused us a great 
deal of alarm.


Recently, we found out that we are starting to find individuals in 
different medical hold companies in different locations around the 
country.  OIF and OEF servicemembers who have had severe eye injuries, 
or have in some cases been blinded in combat have been put in medical 
hold companies, and the VA has never been notified of their existence.


We recently found a 22-year Navy corpsmen who had been in the Navy 
reserves, who was down at Camp Lejeune, and he was down there in medical 
hold for four months.  He was discharged September 8 back to his 
hometown in Ohio, and his instructions were, `` When you get home, find 
the closest VA hospital and try to get an eye clinic appointment.''


We also found an active-duty Army Sergeant Major at Fort Bragg, North 
Carolina, who had had traumatic brain injury, and was legally blind.  
And much to our surprise, we found him on ABC evening news when they 
were doing the story about the reduction in funding for the traumatic 
brain injuries Center at Walter Reed.  Well, surprise, we found that 
that he has also never been referred to the VA, even though he is about 
to be discharged in October.


And then yesterday, I find an individual, an Air Force servicemember out 
in Colorado who was blinded in July, was discharged recently home to 
California.  Again, the VA was never notified.


These cases should begin to demonstrate our complete lack of confidence 
in the seamless transition, and makes me wonder what kind of complete 
disconnect there is between DoD and VA.  We hear here frequently about 
how we have placed case managers at DOD facilities from the VA, and the 
VA comes in and testifies about how they are able to track these 
individuals, and these are just three examples, and I could give you 
about eight more, of cases that we recently have found that have fallen 
through the cracks.


In regards to traumatic brain injury, which I mentioned, this is a 
serious problem that is going to be confronting everyone.  As of January 
14, 2006, DOD reported over 11,852 of the returning wounded 
servicemembers had been exposed to IED blasts, or other types of 
explosion.  With this came the report that over 1800 servicemembers are 
now diagnosed with traumatic brain injury from Walter Reed.  They admit 
that this is the signature injury of this war.  And the complications 
from blast-related injuries can be anywhere from mild, to moderate, to 
severe.


In our case, we are extremely worried because epidemiological research 
studies have shown that about 24 percent of all TBI patients have visual 
disorders.  Some of these are extremely subtle, but they can have a 
major impact on the individual.  Blurred vision, double vision, problems 
with distance, being able to read and interpret print; all these things 
can affect them long-term.


We are concerned about the lack of screening of those at risk of TBI, 
and would urge this Committee to ensure that both DoD and VA medical 
staff have training on identification, diagnosis, and appropriate 
management of TBI.


We also supported fully the Senate defense appropriations of $19 
million, the amendment that was approved recently, and hope that the 
House will also approve this.


Recently, Harvard and Columbia Universities took a look at where we are 
headed at, and the estimated cost of medical treatment for TBI 
servicemembers.  In the next 20 years, the VA could face $14 billion in 
estimated expenses associated with traumatic brain injuries.


We also are concerned we found recently, between March of 2003 and April 
of 2006, that Walter Reed Army medical center has now publicly admitted 
that 16 percent of all servicemembers evacuated from Iraq had eye 
injuries; that they had treated over 670 soldiers with either blindness 
or moderate to severe visual injuries, and that the naval national 
Medical Center had operated on over 360 Navy or Marine Corps personnel 
who had had eye injuries.


Much our surprise though, they refused to provide this information to 
the Department of Veterans Affairs, even though we had a meeting out 
there a couple of weeks ago, because they said, `` We have concerns over 
HIPAA, so we don't want to release these individuals' names, Social 
Security numbers, and information to the VA.''


It is just astounding to us, not only from a standpoint of that 
statement, but also that the VA's computer system won't be able to 
access their inpatient medical records, because the computer systems 
currently, at this stage, can only access four things, which are 
outpatient type of items such as pharmaceuticals, outpatient labs, and 
some other information.


We wonder where this is going.  For the full continuum of care, Blinded 
Veterans Association has constantly worked with this Committee, and with 
the VA, on trying to get improved resources for blinded veterans, and 
especially those older veterans who have age-related visual impairments.


The GAO testified in front of this Committee in July 22, 2004, saying 
that the VA needed more additional outpatient resources, for the full 
continuum of care.  The VA visual impairment advisory board has examined 
and looked at this issue internally since then.  They have made 
recommendations. The VA did an internal GAAP analysis, which looked at 
what current services were available, and they found in the middle of 
all this, with the large numbers of returning casualties with eye 
injuries, that 80 VA medical centers currently, according to the VA's 
own internal GAAP analysis, have no basic outpatient blind services for 
veterans.


Only 14 medical centers in the entire system can provide the full scope 
of advanced blind rehabilitative services. The VA visual impairment 
advisory board also looked at the financial projections for expansion of 
low vision services, and issued a report in November of 2005, that the 
total costs to implement a cost effective outpatient blind 
rehabilitative services would be less than $14 million.  To this date, 
though, only one new outpatient program has been established since July 
22, 2004, when GAO testified before this Committee.


We would strongly like to urge that this Committee pass H.R. 3579, the 
blind rehabilitative outpatient specialist, that this bill would provide 
would make a substantial step towards the right direction in providing 
more outpatient services at VA medical centers.


Currently, three out of the four VA polytrauma centers didn't have a 
blind specialist on their staff, even though they are supposed to have 
full multidisciplinary staff at those centers.  Until just recently, 
this spring, did they hire any of these individuals.


There are two programs that help not only would with the traumatic brain 
injuries screening, but also with the older, aging population with 
visual impairments.  One is a VISOR program, which is a Visual 
Impairment Services Outpatient Rehabilitative program.  And the other 
one is a low-vision optometry program; Visual Impairment Centers To 
Optimize Remaining Sight, called VICTORS.  Both of these programs are 
outpatient programs.  They are operated with the intent of being able to 
not only provide the full scope of services for outpatients, but also to 
be able to provide follow-up care for those veterans who need further 
care.


Most of these programs are extremely cost effective, and yet we have 
been unable to get the funding to establish 18 of these programs, which 
would be $9.5 million.  We wonder, then, when we hear about the robust 
budget, where the money is?


Mr. Chairman, we appreciate the opportunity to testify here today on 
these critical issues, and will be happy to answer any questions that 
you have.


[The statement of Tom Zampieri, Ph.D., appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


STATEMENT OF SGT. MAJ. GENE OVERSTREET



Mr. Miller.  Thank you very much, Doctor.  We'll move along to the Non-
Commissioned Officers Association of America.  Sergeant Major Gene 
Overstreet.  Sergeant Major.


Sgt. Maj. Overstreet.  Thank you, Mr. Chairman and distinguished members 
of the Committee.  We are pleased to be here before you today, before 
this Committee, and to share some of our perspectives on the VA, as we 
look forward and look back.  Thank you for implementing our written 
record into the testimony, sir.


The association is grateful for you holding this hearing.  We think it 
evidences the genuine concern, as you look at the programs and resources 
provided by the VA.  We also think that it weighs the future financially 
for the years in the future accordingly.  This must be done to ensure 
that the resources and priorities are in place to honor this nation's 
institutional commitment to those who have served in the military.


Please note that I emphasize for the VA to honor all our nation's 
commitment to those who have served.  All those who have served.  We 
cannot forget the service and sacrifices of our earlier generations, as 
well as that are serving today.


The honoring of the commitment to the military members and their 
families, and our survivors, with appropriate benefit health care, all 
the way from when they separate or when they go on active duty, all the 
way to the gravesite.


As you can see today, I am joined by a lot of veterans here.  I had the 
opportunity to introduce the President of the United States a couple of 
years ago at Arlington Cemetery.  And I said to him and all those great 
veterans that were watching that preceding, that `` You know, I have a 
friend in San Diego.  He is a retired Marine.  He is a Sergeant Major.  
And every time he introduces himself, he will tell you that he is a 
Marine.  He will tell you that he is retired.  But the very next word 
out of his mouth, he will tell you that he is still serving.''   Sir, 
ma'am, if you look around this room, all these veterans are still 
serving.  We have a lot of veterans across this great country that are 
still serving, and that is why I say let us honor all those who have 
served in the past.


As we enter the second session of the 109th Congress, the nation's 
military force has more servicewomen and men deployed in the war on 
global terror, and more military forces from the Reserve and Guard 
members on active duty, for longer periods of time, of any time since 
World War II.  Most of them have deployed more than once.  As a matter 
of fact, if the Chairman was here, he would suggest, after he went over 
there, most of them have served three, and even on their fourth tour, as 
they go.  And every one of them, every enlisted member, who will hold 
their right hand and swear to affirm the words of the military oath of 
enlistment--simple words, but very profound--to provide the very essence 
of service for every military man and woman, other ultimate declaration; 
these 12 words: `` to support and defend the Constitution of the United 
States.''


I would submit to you, sir, that nowhere in there--and I've said this 
before and I will say this again--that there are any qualifying remarks 
in there about `` if resources are available,''  or `` if we had the 
money to take care of you.''


I would also suggest to you, sir, every time, from the newest recruit, 
to that Sergeant Major, or colonel, or general, that retires at the 
other end, I would suggest to you that they think, when they raised 
their hand and say those words, that they are going to get the best 
equipment, and the best training that this nation can offer.  I would 
also say to you, sir, if one of them should fall in the line of duty, 
that this institution will support those veterans, from a grateful 
nation, for them and their survivors, regardless of what that is.  Like 
you and every veteran in this room today knows the freedom enjoyed by 
all Americans has a price, this nation's commitment to care for them who 
have borne the battle, their widow and their orphans; I would suggest to 
you, sir, that is the payment.


Today, we focus on a look-back and a look-forward, to meet the needs of 
America's veterans as we move forward in time.  First of all, sir, I 
would suggest to you that productivity enhancements of information 
technology and artificial integration are still not online to work 
benefit claims.  The claims backlog will further extend the claim 
timeline for processing.  Sir, we need to hire a full-time employee to 
fill our perceived void.  Those timelines continue to get longer and 
longer for claims processing all the time.


The IT, we want to put a Band-Aid on this.  It is not going to take a 
Band-Aid.  We fully recognize that it is going to take two to three 
years to properly implement that. We think that that is going to happen.


The bottom line is taking care of real live veterans. That is the bottom 
line.  We suggest that you need to do this.  Obviously, there is no 
great need or a super-duper IT program that manages efficiencies and 
productivity.  The issue right now is a process of the high-volume of 
claims that we receive.  As you know, we got more guard, more reserve, 
more whatever.  The war is still going on.  We recognize that the board 
remands and blue water navy OA claims, anticipated blue water navy DIC 
claims, and other veterans appeal actions.  Let us stop penalizing the 
veterans for the untimely final claim processing, because of management 
SNAFUs associated with the department's IT program.


Training of all involved in the VBA claim process, to include initial 
development of claims, reviewing the claims, submitting the process, 
reviewing telephone representatives and service; Make sure that they are 
accurate in giving good information.  Train to me to qualify-able 
standards.  We must do this to reduce the backlog.  NCOA does not 
believe that the VA is adequately funded to complete its mission. 
Veterans sick in VA health care and services for the first time are well 
above projections.  The war is not ended.  More veterans are expected.  
NCOA recognizes the fragmentation as it occurs in health care.  
Scheduling delays, past attempts to disenfranchise veterans from user 
fees, higher co-pay, locking out veterans.  Systems are signal of an 
underfunded discretionary health system.  NCOA believes that it is time 
to make the VA health care system mandatory funding.


Clearly, pressing issues for the VA today is their budget, and their 
staff.  We all understand that and know that.  We need to establish 
long-overdue Medicare plus choice programs.  NCOA has not forgotten the 
2002 vision of the Department of Veterans Affairs to bring subvention 
funding. Nor have we forgotten the envisioned income stream from TRICARE 
for medical reimbursement of non-service-connected health care by 
medical retirees, and possible dependants where feasible.


It is time to review these efforts and enhance the funding capability of 
the VHA.  Secure maximum reimbursement from insurance programs for those 
served by the VA health care system.  Health care appointments, quality 
standards, for those returning from OIF and OEF, have not really been a 
hard difficult to secure appointments for entering the health care 
system.  However, there is a severe shortage of mental health care staff 
managing existing patients.  Far less returning from OIF OEF veterans, 
who are required specifically as it is related to PTSD or other mental 
health, shortage of mental health bed spaces for PTSD, substance abuse, 
alcohol abuse, drugs, suicide; there is a severe shortage of those.


Homeless veterans are a raising number of veterans being identified as 
homeless in America.  Recent numbers project as much as 190,000.  
Whereas, we are going to have a shortfall not to be able to take care of 
that many veterans.


You know, only a couple of years ago, we were arguing that it was less 
than 150,000.  Within a year and a half, now, we are over 190,000.  What 
a shame.  Growing numbers from OEF are part of those numbers, as well, 
and that is really pushing the numbers up.  That is evidence by the 
report from the GAO.


As we conclude today, sir, recently in--certainly not our last 
recommendation--Mr. Chairman, and members of the House Veterans, we 
place before you two concerns for your support as the VA moves forward.  
First, VA needs to secure its role in the medical research and 
development for programs designed for seriously war-injured--I say 
again, seriously war-injured.  These programs would include research 
into the evolving new medical intervention and treatment of traumatic 
brain injuries, and rehabilitation models for brain injuries.


You may not want to hear this, but NCOA strongly is convinced that the 
administration in the VA should be an advocate for those medical 
research to pursue stem cell research for amputees, spinal cord injury, 
and nerve cell functional integration.


We suggest unless you do that, some veterans are going to be left 
behind.  Second, Mr. Chairman, members of the Committee, NCOA believes 
that your efforts are needed to convince the Armed Forces Service 
Committee to revisit the health care record problem.  VA has developed a 
nationally acclaimed computerized patient records system.  It is a great 
system.  The VA model could be tweaked for additional military data to 
include toxic exposures to meet DoD requirements, and all of the other 
requirements that they have.  We have a good model on the ground right 
now that we know that works.  Rather than someone creating their own 
paradigm that don't link up to the VA, and we can't even transfer the 
records from one to the other, and that is, you know, we're leaving a 
lot of people out of the system like that.


We think, let us take a system that is a proven system, and develop it 
for both, because we think it will work for both.  They have an 
effective medical record that can be communicated around the block or 
around the world at the same time.  What does this do for seamless 
transition?  This makes a seamless transition much easier and much more 
seamless than it has ever been before.


Mr. Chairman, distinguished members of the Committee, NCOA thank you for 
this time, and appreciates the invitation to appear before you.


[The statement of Sgt. Maj. Overstreet appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


The Chairman. [Presiding]  Thank you very much.


The members were going to be in session until probably very late on the 
29th, which is next Friday, which means a lot of the Committees are 
doing markups on a lot of different bills and trying to gain access to 
the floor prior to the 29th, so I just want to let you know why members 
are not here, and coming and going.  We are having a markup on NIH, in 
the Commerce Committee, which I am also a member, so I apologize for my 
absence.


I had, last night, the opportunity to read your testimonies.  And let me 
compliment you on the substantive nature of your testimony, and also the 
oral presentations. We, in our negotiations at the moment with the 
Senate on pending bills, I have to go deep and into a narrow lane, 
quickly.


So as I understand, let me make sure I can get this correct.  With 
regard to the issue on attorney representation in the claims process, 
VFW opposes?  Is that correct?


Mr. Kurpius.  Correct.


The Chairman.  Amvets opposes?


Mr. McGriff.  Correct.


The Chairman.  DAV opposes?


Mr. Barton.  Wholeheartedly.


The Chairman.  All right, that is not an undecided. Wholeheartedly 
opposes?


Mr. Barton.  Opposes, yes.


The Chairman.  Okay.  And Mr. Barton, your organization?  I am sorry, 
Mr. Barton opposes.  Dr. Zampieri?


Dr. Zampieri.  We oppose it.


The Chairman.  Blind Veterans opposes.  NCOA?


Sgt. Maj. Overstreet.  We do not oppose it, sir.


The Chairman.  ``We do not oppose,'' that is a double negative, Sergeant 
Major.  Do you support Larry Craig's position, the Senate position?


Sgt. Maj. Overstreet.  We support the legislative position.


The Chairman.  Okay, you support the legislative position.


All right, now let me go to the testimony of the four that oppose.  With 
regard to a bill, Mr. Evans' bill that would--let me get the accurate 
language.  Mr. Evans' approach would be an attorney could enter the 
process after a notice of disagreement has been issued.  Would that 
change the position of the VFW at all?  Would you still oppose?


Mr. Kurpius.  Still opposed.


The Chairman.  Amvets?


Mr. McGriff.  Amvets is still opposed, sir.


The Chairman.  DAV?


Mr. Barton.  We are still opposed, sir.


The Chairman.  Wholeheartedly?


Mr. Barton.  Wholeheartedly.  Emphatically. Definitely, we are opposed.


The Chairman.  All right, that is a lot of adjectives. I got it.  
Blinded veterans?


Dr. Zampieri.  We would probably support that part of it.


The Chairman.  Okay, so if you went with the Evans approach, then you 
would support?  All right, that is important for us to know.


Sergeant Major, that didn't change your position at all, I know.  If you 
are hard over on that one, then you would also support the Evans 
approach; would that be correct?


Sgt. Maj. Overstreet.  Correct.


The Chairman.  All right.  With the witnesses on the second panel, I 
have to go down the same questions, so please prepare for that.


There was a question at the Subcommittee on Disability Assistance and 
Memorial Affairs when they held an oversight hearing, on the operations 
at the Board of Veterans Appeals. The past president of the National 
Organization of Veterans Advocates stated, and I quote, `` As 
unsophisticated persons, claimants almost invariably lack the skills to 
determine what evidence they need to produce.  What they need is a set 
of skills that experienced lawyers acquire.''


Now, from this statement, I believe the assertion here is that veterans 
and survivors are unsophisticated, and require an attorney in order to 
receive the benefits from the VA, and that the system today has become 
too complex and adversarial.  So I would like to know about your 
comments with regard to this quote.  VFW?


Mr. Kurpius.  No, I take exception to that quote completely, if that is 
in reference to the veteran or the veteran's family seeking the 
entitlement, or towards the representation that we provide.  That is not 
a true statement.  We spend hundreds of thousands of dollars, all the 
organizations, on training our personnel for representation.  And it is 
in a non-adversarial position. The attorneys would only clog up the 
system so much more.


And I would like to make a statement.  We just had our legislative 
conference here.  And we charged the hill, let us say, with them, and 
they made visits to many of the offices. And the lack of knowledge, let 
us say, on the individuals who will be deciding this; they weren't 
really up to speed on the issue.  So if this does come forward, I would 
certainly like to see this go to hearings first, if this ever is going 
to be acted upon.  We have some real concerns with this because the 
people were not even aware of it, a lot of the Congressional people.


The Chairman.  Amvets?


Mr. McGriff.  Mr. Chairman, Amvets is very proud of its Veterans Service 
Officer organization.  Across this country, we have men that, that is 
their life.  Their life is veterans serving veterans.  They are fully 
aware of the ins and outs, and the ways to go through the bureaucracy of 
the VA.  And their only goal is to get that veteran what may be due to 
him.  And this is at no charge to the veteran or the veteran's family.  
And we spend eight hours a day, five days a week, 52 weeks a year, 
serving that veteran.


I don't think you can take a brand-new Jones & Jones Law firm and have 
him equally represent a veteran as well as a veterans service Officer 
can do it.


The Chairman.  If a requirement was added that an attorney would have 
some form of certification with regard to the veterans, with the 
practice, would it matter?


Mr. McGriff.  I don't think so--yes, it would matter. Let me re-answer 
that.  Yes, it would matter if they had a certification.  And there 
again, we get into the problem of getting the VA to certify them, and 
then there is going to be a cost, a delay, and a time of staff that is 
not necessary. Let us take that money to certify them, and hire more 
VSOs.


The Chairman.  DAV?


Mr. Barton.  I would suggest that perhaps lawyers don't really have the 
skills to maneuver the VA claims process.  I am an attorney and I speak 
with some experience in the area.  I knew a lot more about the VA and 
the claims process as a disabled veteran than I ever knew as an 
attorney.  Perhaps attorneys would aid them in presenting their 
evidence, but I think the empirical data from the Board of Veterans' 
Appeals demonstrates that attorneys do not possess any special skills to 
make them any more successful than our outstanding group of national 
service officers with the DAV.  And I think it would be a disservice to 
the veteran community to have to pay for representation to obtain 
benefits he has already paid the price for in his service and sacrifice 
for our country.


The Chairman.  Blinded Veterans Association?


Dr. Zampieri.  Yeah, we are concerned with, as my distinguished 
colleagues here said, in that, you know, I don't come to this with a 
legal background, but I do come at it from the standpoint of a medical 
background, where specialists are better at taking care of things than a 
generalist, depending on the particular problem.  And when you get 
individuals who are going to be quote, `` vying for business,''  then 
you know, the free-market system works very well in individuals being 
able to target an audience, so to speak, and get people to sign up for 
services without fully realizing that their legal representative is 
well-qualified in that area.


And our claims benefits officers do a tremendous job of assisting 
veterans with their initial claims, and are very successful in helping 
them through the process.  And we would have strong reservations about 
ensuring that there is strong oversight and safeguards in regards to who 
is exactly going to be allowed to do this.


You know, the analogy I use is the plastic surgeon doing one thing, and 
a dermatologist trying to do the same procedure, they are just not 
trained the same way.  And there is a lot of risk out there, and I have 
followed what has happened with the asbestos situation, and I think 
anyone who has looked at the horror stories out there, where individuals 
have cherry-picked large numbers of claims that they figured would have 
the best payout, and have manufactured things in order to try to get 
large class-action suits settled, makes us very worried and suspicious 
of what might happen with this situation.


The Chairman.  Given your prior testimony that you would support the 
Evans approach, if Congress were to adopt that approach, would you 
advocate that the court require some particular types of certification, 
or hours of training by a lawyer, in order to practice in that process?


Dr. Zampieri.  Yes, I think so.  Because it would be at least a 
safeguard in making sure that the individual has met certain standards 
before trying to accept cases.


The Chairman.  Okay.  NCOA?


Dr. Zampieri.  Before being able to try and take cases, the individual 
have to have met certain standards.


Sgt. Maj. Overstreet.  Sir, I think our concern is with the veterans 
themselves.  They are to have the option. It is kind of like being--
going to article 15; do you have opportunity for counsel?  Who are you 
going to get that counsel from?  Chances are you are going to get it 
from the first sergeant, you are going to get it from the gunny, you are 
going to get it from the sergeant major.  You are going to get it from 
someone in the pipeline, that is raised in the pipeline, that understand 
that.


However, before you go before the Commander, you have the opportunity to 
go seek counsel, legal counsel, either military or other.  That is their 
option.  We kind of see us sort of as the same way.  Okay, you can go to 
the VSO.  We have VSOs, we think they do a great job.  We are not 
suggesting that in the least.  However, if the veteran is not satisfied 
with the VSO that he has, or with any VSO he talks to, we believe that 
he ought to have that option to go seek counsel otherwise.


Now, as far as their training goes, and as far as what they will be able 
to do, maybe we need to hold that up to the light and see just how far 
they can represent this veteran in his claimeth or whatever, to get it 
through the process.


However, when it comes down to that veteran, we think they ought to have 
that option, though.


The Chairman.  Did all of you present your views and opinions to the 
Senate before they voted on this measure?


Sgt. Maj. Overstreet.  We did not, sir.


The Chairman.  You didn't?


Sgt. Maj. Overstreet.  No, sir.


The Chairman.  Blind Association did?  DAV did? Amvets?  VFW?


Mr. Barton.  Yes, sir.


Mr. McGriff.  I don't believe so.


Mr. Kurpius.  They knew that we opposed them, but we did not have an 
opportunity to present it to them at the time.  They know now that we do 
oppose it, now.


The Chairman.  Well, all right.


Last comment I have, Sergeant Major, when we were in the theater with 
the secretary and Mr. Salazar, and Dr. Boozman, the Marine Corps is 
still doing something right.  You can spot a gunny from a distance.  
Every time I would meet one and walk up to him--there is a cookie-cutter 
going on out there.  I mean, whatever you are doing to these guys, they 
are built right, they sound right, they are leaders, and they are very 
impressive in the field.  So I extend my complements.


Sgt. Maj. Overstreet.  Thank you.


The Chairman.  Whatever the basis that you laid continues.


Mr. Filner?


Mr. Filner.  Thank you, Mr. Chairman.  Thank you for your introduction 
of these gentlemen.  As you read their biographies, it shows us why we 
are here.  And you could have done the same thing for every man and 
woman in the audience, and I appreciate knowing a little bit about their 
background.  Even the extinct fish one.  So thank you for that.


The Chairman gave me a good model, so I will just proceed the same way 
with another issue, that is, however you want to define `` assured,''  
or `` mandatory funding.''   And as I heard all of you, again, you were 
all for it.  VFW?  Yes?


Mr. McGriff.  Absolutely.


Mr. Filner.  DAV?


Mr. Barton.  Yes, we are.


Mr. Filner.  Wholeheartedly?


Mr. Barton.  Wholeheartedly.


Mr. Filner.  Okay.


Dr. Zampieri.  Yes.


Sgt. Maj. Overstreet. Yes, sir.


Mr. Filner.  Thank you.  So all of these organizations are for mandatory 
funding.  And I think you have all been through the so called "budget 
process."  Whoever said it is like watching sausage made had it right.  
It is not a very pleasant process.  It puts the veterans' organizations 
in a sort of a begging situation, which should never be.  We should beg 
you to allow us to help.  But I think we have to get out at it. You 
know, we have these arguments about numbers; $2 billion, $4 billion, $1 
billion--if we had a formula that everybody accepted, and it was 
applied, we would be far better off.


Chairman Buyer suggested it would cost a lot of money.  I am not sure 
there is agreement on those figures, but I would not let that dissuade 
me right now.  As I said earlier, when you have a $3 trillion budget and 
an $8 trillion deficit, several billions or even tens of billions more 
for veterans is not out of our ability, and we should do that.


I thank all of you for talking about mental health.  It is an incredibly 
important area.  We seem to have knowledge of how to deal with the 
physical trauma, but I think the mental trauma is still one that we 
don't, as a society, or even as a VA, I think want to admit.  We know 
that is as debilitating as any physical injury.  We have to have not 
only mandatory counseling, but outreach to the families, and a culture 
change which says, `` Hey, it is all right to admit that. You have to 
confront it, and deal with it.'' 


Out in San Diego, which I represent, the Vietnam vets had started a 
process which has now culminated in something called the Veterans 
Village, which basically institutionalizes the standdowns.  It brings 
everybody into a secure environment--they started off with just 30 beds.  
They will be up to 200 soon, and then 400.  Of course, that doesn't 
begin to deal with the problem, but they give many veterans security and 
safety in terms of housing and comfort, medical, legal, mental health, 
job counseling, dental, is all brought into one unit, and we have a 
chance to make sure that these brave young men and women can make a 
recovery.


It doesn't matter what we thought about the Vietnam War, it doesn't 
matter what we feel about the Iraq war.  When veterans come home, we 
have to make sure they are served.  We know how to do it!  As moving as 
the Vietnam vets' program is out in San Diego--it serves 400--we may 
have 200,000 homeless veterans.  We should never have to say `` 
homeless,''  and `` veteran''  in the same sentence.  This nation has 
failed, I think, in that area.


Lastly--I want to give a chance for Mr. Michaud for questions--everybody 
said, `` accountability.''   That is our job.  And you may have used 
different words for it, such as `` quantifiable standards,'' to deal 
with the claims, for example. This Committee should be working far more 
in an oversight capacity.  As I said to the Chairman many times, the 
process of oversight during the data theft was a model of how the 
Committee should work.  We worked bipartisanly, we worked strenuously.  
We became knowledgeable, and we held people accountable.  I think that 
is what we have to do in all areas. Thank you, Mr. Chairman.


The Chairman.  Mr. Michaud?


Mr. Michaud.  Thank you very much Mr. Chairman.  I want to thank all the 
panelists, as well.


Because mild traumatic brain injury is not often diagnosed, many 
veterans with that condition do not receive treatment.  What do you see 
as the urgent need to deal with this issue?  And the long-term need that 
we must do to address TBI?  Any one of the panelists?


Dr. Zampieri.  Let me take a shot at that.  I think that talking to the 
providers at Walter Reed and over at that Bethesda Naval Medical Center, 
you know, the proposal is four things.  One is that, you know, you need 
to start educating VA and DoD providers, and being able to, in the 
history, being able to find those individuals who have been at high risk 
for explosions or blast injuries.  And then in the screening process, 
educate the providers who are front-line people, and looking for the 
subtle types of problems that can manifest themselves.  And especially 
in regards to--there is a new syndrome out there, Post Trauma Visual 
Syndrome, PTVS. And these subtle findings wouldn't be routinely picked 
up.


And so the second part of this is having screening centers with 
individuals who have had the appropriate training and experience, and be 
able to start to track those individuals, and screen them, and then 
provide not only care--for example, with a low-vision VA optometrist--
but then provide follow-up.


And then the fourth part of this is the research part, which is looking 
at what types of treatments work best.  And you know, collecting that 
information, and then working towards future better results and 
improvements, and therapies.


Mr. Michaud.  My second question, quickly, is since we haven't passed 
the budget, have any of the VSOs heard from VA staff, regarding the 
effect that is having right now; i.e., that they are delaying hiring a 
vacant position, or they are not providing services in a timely manner 
because they don't know what their budget is going to be?  Have you 
heard any feedback from the field?


Mr. McGriff.  Very little feedback, Congressman.  I think what you do is 
when they don't have a budget in hand, as in everything gets put on 
hold, new hires and things like that get it on hold.  But if you really 
think about it, though, the pay raises that have been authorized, they 
go ahead and go through.  So therefore, you have immediately started in 
a negative situation.  And so then you have to be very careful of your 
spending on a continuum-type budget. And so yeah, it does put a strain 
on the system.  It puts one that is felt all the way down the line.


Mr. Kurpius.  Yes, we have heard that matter of fact, the FTE may even 
be cut on the BVA side, so there is a real negative there on that 
aspect.


Dr. Zampieri.  That has been our experience, as well. We are getting 
reports from VA facilities across the country that they are having 
difficulty in meeting their staff needs because of resources available 
to them, which translates to slower service for veteran population.


Mr. Michaud.  Thank you.  I yield back, Mr. Chairman.


The Chairman.  Ms. Herseth?


Ms. Herseth.  Thank you, Mr. Chairman.  Thank you for having this 
oversight hearing.  I appreciate the written testimony that all of you 
have provided, and I know that in many of these written statements, and 
perhaps in your earlier testimony, you reiterated your various 
organizations' support for modernizing the Montgomery G.I. Bill, and as 
the Ranking Member of the Economic Opportunity Subcommittee, we think 
has started to lay some very important groundwork, reaching out to all 
of you, some of the field hearings that Mr. Boozman and I have held, 
including one in Arkansas earlier this spring; Dr. Snyder's involvement 
as a member of the Armed Services Committee as well, in undertaking that 
challenging task, but one that I think is very important, particularly 
for improving those educational benefits for our active duty military, 
as well as the National Guard and reservists who have been deployed at 
much higher rates, as you know.


I just have a couple of quick questions.  And the first is on 
transportation reimbursement for your members.  I am hearing even more 
not only representing many veterans who are in rural areas, but the 
significant costs associated with traveling for specialized care.  And 
so if you could address that issue, as well as the VR&E program, we have 
had a number of hearings, as you know, about recommendations to improve 
that program, specifically, move from, you know, refocusing the program 
on employment rather than on education.  And so has your membership 
noticed a difference in the VR&E program, and can you provide us with 
any additional recommendations to improve that program?


If you could start with the transportation reimbursement issue, and then 
if we don't have time because of votes, if maybe you could just submit 
any comments you would like to share in writing to the Committee with 
regard to VR&E, in addition to what may have been in your written 
statements?


Sgt. Maj. Overstreet.  Ma'am, I am from San Antonio Texas.  We have a 
great VA hospital in the San Antonio area. However, that is the furthest 
one south that we have.  All of those veterans that are south of San 
Antonio, all the way into the valley area, what we call the valley, has 
to pay their own way to get up to San Antonio to do their appointments.  
We have a couple of buses that try to run there.  All the organizations 
provide transportation.  We provide volunteers, we provide all of those.  
However, if it is on the day, your point is on the day where we have no 
transportation, the bus is broke, or we don't have a volunteer to drive 
it, obviously that appointment gets set to ask.  You probably know 
already the scheduling problem with the VA to get into the hospital, as 
far as that.


So, here is a veteran that can't get there.  Whereas, if we did have 
some kind of reimbursement for transportation and stuff like that, it 
would make it a lot easier for that veteran to schedule his appointment, 
schedule his transportation, and be there in a timely manner.  So there 
is some problems with that.  I suggest if there is a way that we could 
reimburse their transportation, we would support that.


Dr. Zampieri.  Yeah, we would support an increase in the travel 
allowance for those veterans that had to travel, you know, long 
distances for the outpatient services.  You know, the $.11 a mile 
reimbursement rate doesn't cover much when the price of gas is $2.90 a 
gallon.


Mr. McGriff.  And you also had a great differential, also, in what the 
IRS or federal rate is for mileage, plus what the VA is for mileage.  It 
is a vast difference--it is that big.  And a lot of this is caused by 
the fluctuating gas prices and transportation costs that everybody 
encounters. But the big difference between the 46 and a half cents and 
the $.11, it grabs you.  And that is what a lot of veterans have to 
depend on, is the VA reimbursement rate, and it is too low.


Mr. Barton.  The DAV recognizes, back in the 1980s when there was a 
dramatic change in the transportation for veterans to go to the hospital 
for care, and that is when we came up with our program of the van 
transportation network. We have transported nine and a half million 
veterans since we began our program in 1987.  But yeah, anything you 
could do to improve that situation would greatly be appreciated by 
everyone.


Mr. Kurpius.  The veterans of foreign wars would certainly support an 
increase in the transportation costs for our veterans, to get back and 
forth for the medical exams and treatment.


The Chairman.  Ma'am?


Ms. Herseth.  I think in light of the time--well, I did put that other 
question on the VR&E program, but I think that has been addressed to a 
degree in the written statements, and anything else you would like to 
add would be helpful.  Thank you.


The Chairman.  Thank you very much.


Two things to cover.  Every war, we find something that is out of the 
norm that we then have to address.  And TBI is the big one in front of 
us with the present conflict.  To let you know, on the forefront, trying 
to get ahead of this one, I have been working with the services on 
protective issues, and that is the helmet issue, and inserts.


The Commandant of the Marine Corps, in working with the Commandant, he 
made the executive decision that to give the Marines the choice.  We, as 
a society, even though some had financed some studies, we really don't 
know.  But some of these inserts--to give you an idea, if you take that 
insert and you cut it in half, and you look at the inside, it almost 
looks like a human cell, and it is built to absorb energy.


So, as we put all that body armor, you know, the front and side plate, 
shoulder plate, neck plate, groin plate, you put on that brand-new 
helmet that we've got them, and they strap it on with that football 
strap; and that blast comes in and we have got them sitting in a vault 
on wheels.  There is nothing to absorb that energy, and that energy goes 
to where it can be absorbed, and part of it goes up the face, and you 
get those maxillofacial injuries, and the eye injuries that we talked 
about.  And the ear injuries.  Then, part of it is absorbed by the 
brain, so we end up with these traumatic brain injuries.


So our research with regard to the brain injuries and that care, but 
also on the protective side.  We are a smart people, and that helmet out 
there is the best in the world on ballistics, and it helps them in a 
crash.  But can we build a helmet that doesn't compromise ballistic 
protection, and can give them the blast protection?  I don't know.  But 
it is worth a try.  And so I want all of you to know, that is where I am 
going, as we look at the other question.


So I will speak with the VA.  I want to work with you. I appreciate your 
testimony and focus on that issue, and the work that we're doing at the 
polytrauma centers.  I know you join me in the kudos to the men and 
women out there who are caring for those patients.


I agree with Mr. Filner in his comments --I am really proud of the 
Committee.  We did eight hearings in a six-month time frame.  Pretty 
hard on VA, on the IT issues, and we have got a product.  That product 
goes to the House floor next week.  So I would ask for all of your 
support and advocacy of our product as we then take that up with the 
Senate.  As you know, last year, we had passed an IT Bill, and there are 
no questions on this Committee; it is a bipartisan issue. The Senate 
didn't necessarily agree with us, and we ended up in a bad spot.  So 
please, as we go into this, and you formulate your  Independent Budget, 
please address a focus on those IT issues.  And we want to work with 
you.  Okay?


Ms. Herseth?


Ms. Herseth.  Well, I know we are running close on a vote, but I would 
just want to comment for the record, we have to be very clear on the 
costs we save in what we do to enhance the quality of care, the 
rehabilitative care, beyond 90 days, for these young and men and women 
suffering traumatic brain injuries, because improvements are necessary. 
I have a constituent who is now getting care in a private facility, and 
there were worries that because he hadn't made so much progress after 90 
days, even though he wasn't getting his physical therapy every day, even 
that he wasn't getting any occupational therapy, no speech therapy, he 
has made more progress in 45 days at a different facility, a non-VA 
facility.  And the cost savings that we can realize, not only the 
quality of care that he deserves, but the cost savings of not having a 
long-term care situation for these young men and women is very important 
as we look at the next budget.


Thank you, Mr. Chairman.


The Chairman.  Thank you very much.  This panel is now excused.  The 
Committee will stand in recess.  We will reconvene at a quarter after 
one.


[Recess]


The Chairman.  The Veterans Affairs Committee of the House will come to 
order.


Now I introduce panel two.  Here representing the Military Order of the 
Purple Heart of the United States is Tom Poulter, their National 
Commander.  Commander Poulter enlisted in the United States Army in 
February 1967 and was commissioned as a second lieutenant of armor in 
1968.  He served in Vietnam as a tank platoon leader with the first 
Battalion 69th armor, and was assigned to the fourth infantry division 
in the Central Highlands of Vietnam.  In November 17, 1969, after battle 
with a company-sized enemy force of the 24th North Vietnamese Army 
regiment near the Cambodian border, Commander Poulter was wounded in 
action by an AK-47 round by the enemy during an NVA counter attack, 
while he was dismounted and consolidating his platoon's objective.


Commander Poulter is an active member of the Sonoma County Chapter 78 of 
the Military Order of the Purple Heart located in Santa Rosa, 
California, where he became a member in 1994.  He is a past Commander of 
his local chapter, the Department of California, and the Commander of 
region six, that includes Guam, Hawaii, California, Arizona, Nevada, and 
Utah.  Thank you for being here, and congratulations.


Speaking on behalf of The Paralyzed Veterans of America is Mr. Randy 
Pleva.  Speaking for him is Louis Irvin.  Is it Pleva, is that how he 
pronounces it, though?


Mr. Irvin.  It is Pleva.


The Chairman.  Mr. Irvin is PVA's Executive Director. Mr. Irvin served 
the United States Navy as a fire control technician, and received a 
combat action ribbon during operation Desert Storm.  He suffered a 
spinal cord injury that ended his military career in 1992, became a 
member of PVA in 1994, and began to serve PVA as the National Service 
Officer the same year.  Four years later, he was appointed to PVA's 
national Board of Directors, and in 1999, was accepted to the position 
of executive director of PVA's San Diego chapter in California.


Representing the Gold Star Wives is Ms. Rose Elizabeth Lee.  Rose is the 
widow of Colonel Lee of the United States Army, who served in Korea and 
Vietnam.  Colonel Lee died on active duty overseas in 1972.  In 1978, 
Rose was appointed Gold Star Wives' Washington representative, and has 
been active through most of that time.  Rose is Gold Star wives' 
National President from 1991 to 1993, and chaired the Board of Directors 
from 1998 to 2002.  She just served as Potomac area chapter president 
from June, 2004 to 2006.  All her work with Gold Star Wives is 
voluntary, and her mission is to train the new young widows to become 
involved with legislative work.  Rose has appeared representing the Gold 
Star Wives before this Committee for a number of years.


And I understand that your National President, Ms. Joanne Young, is here 
in the audience today?


Ms. Lee.  Yes.


The Chairman.  Thank you very much for your attendance, and I thank you, 
and I welcome you both.  I also understand that it is your charter that 
does not permit Ms. Young to testify, and that is why Rose Lee is 
testifying on your behalf.  Would that be accurate, ma'am?  That is 
accurate?  All right, thank you.


Here representing the Fleet Reserve Association, representing their 
National President is Edgar Zerr, is Mr. John Davis, director of 
legislative programs.  Mr. Davis this, a former Marine, served in the 
artillery unit in the early 1980s, and later received a direct 
commission to serve in the Army National Guard.  He joined the Fleet 
Reserve Association team as director in February 2006.


You know, I am looking for your vast bio for the Vietnam Veterans of 
America, and I just cannot find it.  Mr. President, you have testified 
before this Committee, and we have enjoyed working with you.  I just 
hate to be redundant, it is so vast.  So I will not bore everyone.  You 
are such a humble man that you have restrained me from reading your bio.


Next, our final witness will be the new National Commander of the 
American Legion, Paul Morin of Massachusetts, was elected National 
Commander on August 31, 2006.  The Commander is a Vietnam veteran of the 
United States Army, and an active member of post 337 in Massachusetts.  
He has served as department Commander, and as member of the national 
commissions, including Children and Youth, Foreign Relations, Public 
Relations, and Convention. He has chaired the Veterans Affairs and 
Rehabilitation commission, as well as the Legislative Employment 
commissions, and served on the Legislative Council and commission.


He was honored in 2001 by the Secretary of Veterans Affairs, Tony 
Principi, with the Secretary's Award for his service to our nation's 
veterans while President of the National Associative State Veterans 
Homes.  In 2002, he was awarded Outstanding Citizen of the Year by the 
Samson World War II Navy veterans, and in 2004, received the outside 
award from Massachusetts Veterans Service Officers' Association. On 
March 31, 2005 he received the distinguished citizens award from the 
Grand Lodge Order of the Elks.


So congratulations to all of you, and thank you for being here.  Do all 
of you have written testimony you seek to submit before the Committee?


All acknowledge in the affirmative.  Do you offer such testimony?


All acknowledge in the affirmative, so testimony will be received 
without objection.  So ordered.


Each of you will be recognized for 10 minutes, and we will give 
latitude, and we will start with you, sir.  Mr. Poulter, of the Purple 
Heart Association. 


STATEMENTS OF TOM POULTER, NATIONAL COMMANDER, MILITARY ORDER OF THE 
PURPLE HEART; LOUIS IRVIN, EXECUTIVE DIRECTOR, PARALYZED VETERANS OF 
AMERICA; ROSE E. LEE, CHAIR, GOVERNMENT RELATIONS COMMITTEE, GOLD STAR 
WIVES OF AMERICA, INC.; JOHN R. DAVIS, DIRECTOR, LEGISLATIVE PROGRAMS, 
FLEET RESERVE ASSOCIATION; JOHN ROWAN, National President, VIETNAM 
VETERANS OF AMERICA; MR. PAUL MORIN, NATIONAL COMMANDER, THE AMERICAN 
LEGION



STATEMENT OF TOM POULTER



Mr. Poulter.  Chairman Buyer, Acting Ranking Member Filner, members of 
the Committee, ladies and gentlemen, I am Tom Poulter, National 
Commander of the Military Order of the Purple Heart.  It is an honor to 
appear before this distinguished body on behalf of the members of the 
Military Order of the Purple Heart.  As you are aware, our order is very 
unique in that among service organizations, the only one, because our 
membership is comprised entirely of combat-wounded veterans who shed 
their blood on the battlefields of the world while serving in the armed 
forces of our country.


I am accompanied today by National Adjutant Bill Bacon, National Service 
Director Jack Leonard, and National Legislative Director Herschel Gober.


I have turned in a written testimony, and I will make my comments very 
brief, Mr. Chairman, but this Committee is extremely important to the 
Military Order of the Purple Heart and our members.  We look to you to 
represent the veterans of our country and to ensure that all members of 
Congress understand that America must keep its promises to those men and 
women who have served and are now serving in uniform, if we are to 
maintain a viable military and continue to enjoy the freedoms that we 
have.  Veterans have earned their entitlements and benefits, often as 
part and parcel of the contract that each had with this government.


Veterans benefits are not a gift.  They are not a welfare program.  They 
are earned from service to country. They must not be diminished in any 
way.


The first point I would like to make is--and it has been covered several 
times--is the adequate funding for the VA health administration.  The 
Military Order of the Purple Heart is on record as supporting the 
Independent Budget, which is developed and submitted to Congress by the 
Veterans of Foreign Wars, Disabled American Veterans, Paralyzed Veterans 
of America, and the Amvets, American Veterans.


I am the fourth National Commander of the Military Order of the Purple 
Heart in a row to again stress that our number one priority must remain 
the adequate, or assured funding for the VA health administration.  The 
Military Order of the Purple Heart joins our fellow veterans' service 
organizations in urging Congress to find a long-term solution for once 
and for all to the annual funding crisis at the VA.  VA deserves a 
budget system that will deliver funds to them on time, to allow for 
long-term planning.  While the ongoing war on terror, and our 
servicemembers returning home from war with medical conditions requiring 
treatment at our VA hospitals, the VA must have the capability to meet 
their medical and emotional needs.  The funding problem was 
demonstrated, of course, last year when the need to provide a 
supplemental appropriation for fiscal year 2005 surfaced, along with the 
need to amend the fiscal year 2006 budget.  So it is really important, 
and I think it has been mentioned by every other veterans' service 
organization that we get a fix on this.


And the number two item is that the award of the Purple Heart medal to 
those POWs who died in captivity.  While the award of the Purple Heart 
medal to those POWs who died in captivity is not under the purview of 
this Committee, the Military Order of the Purple Heart believes that 
those military personnel who suffered hardships, wounds, or illnesses, 
including starvation, brutality, slave labor, and a lack of medical 
care, while held in POW camps, and then they died in those camps as a 
result of this internment, should be considered as combat casualties, 
and eligible for the award of the Purple Heart medal.  Our order has 
supported legislation that was introduced to both Houses of Congress, 
that would authorize the posthumous awarding of the Purple Heart medal 
to these veterans.


Language in the House version of the 2007 national Defense authorization 
is currently in conference committee, and the Military Order of the 
Purple Heart request that members of this Committee urge the conferees 
to retain this provision in the final act.


Next point is retired pay restoration.  The Military Order of the Purple 
Heart is very pleased that Congress enacted legislation that authorizes 
some military retirees with 20 or more years of service to concurrently 
receive, without penalty or offset, both their full of military retired 
pay, and any VA compensation to which they are entitled.  Our position 
is that all those eligible for concurrent receipt should receive it.


And going along with that, the Combat-Related Special Compensation, 
known as CRSC, our order supports the legislation to provide for the 
additional payment of CRSC to former members of the military who were 
retired medically, serving less than 20 years of active military service 
because they had to be retired on a medical basis, and they are awarded 
the Purple Heart medal.  A lot of the veterans' organizations ask why we 
push those.  A lot of our members are in that category.  And so CRSC is 
very, very important to the members of our order.


Fifth point is the Survivor Benefit Plan, SBP, and the Dependency and 
Indemnity Compensation, DIC.  SBP was an investment by the member with 
their own money.  The Military Order of the Purple Heart supports 
language in Senate bill 2766, and the 2007 Defense Authorization Act, 
which, if enacted, will repeal the reduction of survivor benefit plan 
annuities by the amount of the dependency and indemnity compensation, 
and will change the effective date of the paid- up coverage for SBP, 
bringing it forward from October 1 of 2008 to October 1 of this year, 
2006.  Survivors of retirees who died but elected to pay into SBP, and 
survivors of members who died on active duty, should receive both SBP 
and DIC, without the current dollar-for-dollar offset.


This bill is now in the conference Committee.  We request that you urge 
your colleagues who are serving on the Committee to adopt the Senate 
language of S. 2766.


Another point that I wanted to make was on the Stolen Valor Act.  The 
Military Order of the Purple Heart supported House Bill 3352, and S. 
1998, addressing stolen valor.  It is unfortunate, especially with our 
country engaged in ongoing conflicts, that we have these imposters out 
there who fully and knowingly misrepresent their service.  Not a matter 
of inflating your resume, it is a matter of lying, and misrepresenting 
your total service, and any of the military awards that they have 
received.  This is not just an occurrence now and then, but is 
regrettably becoming a huge problem.


This legislation would provide fines and imprisonment for those 
wannabees who dishonor the medals for valor and Purple Heart medal, and 
those brave men and women who have legitimately received these metals.  
The Senate passed Senate Bill 1998 two weeks ago on September 7, and we 
would urge the House to do the same.  These phonies are taking benefits 
away from those who have earned them.  Some received VA disability for 
no service that they ever had.  They get license plates, including the 
Purple Heart license plate from the DMV, where they don't have the 
people that are trained to look at a DD 214, or a certificate, and it is 
a big problem.  Now, that particular bill in the House of course was 
introduced by Congressman John Salazar, and it has been in the House 
Judiciary Committee since July of 2005, last year.


The Military Order of the Purple Heart will continue to seek legislation 
that would authorize military exchange and commissary privileges for all 
recipients of the Purple Heart medal.  This would recognize the 
sacrifices of those servicemembers who have given so much for our 
country.


The National Purple Heart Recognition Day.  As most of you are aware, 
the Badge of Military Merit, which is the predecessor of the Purple 
Heart medal, was established by General George Washington on August 7, 
1782.  This is the oldest decoration in the United States.  It is the 
oldest decoration in the world given to the common soldier.  Next year 
on August 7, 2007, the Military Order of the Purple Heart is celebrating 
its 225th anniversary of this decoration at our 75th national convention 
in New Windsor, New York, which is a historic entombment center, and the 
last encampment of George Washington's army.


We will be seeking sponsors, cosponsors, in support of legislation to 
establish a National Purple Heart Recognition Day, which will honor this 
anniversary and those members, past and present, who have been awarded a 
Purple Heart medal.


Mr. Chairman, will you sponsor this legislation, and seek cosponsors?  
We would be very honored if you would do that.


In conclusion, I would like the members of the Committee to recall the 
quotes of two very famous Americans.  First of all, General Douglas 
MacArthur once said, and I quote, `` The soldier, above all other 
prayers, for peace.  For it is the soldier who must suffer and bear the 
deepest wounds and scars of war.''


And then, President John F. Kennedy said, and I quote, `` Let every 
nation know, whether it wishes us well or ill, that we shall pay any 
price, bear any burden, meet any hardship, support any friend, oppose 
any foe, in order to assure survival and success of liberty.''


The Military Order of the Purple Heart supports all of our brave 
warriors, both male and female, who serve and fight to protect our 
freedoms in the global war on terrorism.


Mr. Chairman, this concludes my testimony, and I will be pleased to 
answer any questions from the members of the Committee.


[The statement of Tom Poulter appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


STATEMENT OF LOUIS IRVIN



The Chairman.  Thank you very much for your testimony. Mr. Irvin?


Mr. Irvin.  Thank you, Mr. Chairman, members of the Committee.  On 
behalf of the Paralyzed Veterans of America, as the new Executive 
Director I would like to thank you for the opportunity to testify today.  
In my statements today, I will highlight some issues that have been 
submitted in our written testimony.


In May, the House of Representatives approved the fiscal year 2007 
appropriations bill that will fund $25.4 billion for VA medical 
services.  Although this does not quite meet the recommendation levels 
of the Independent Budget, we are glad to see that Congress and the 
Administration have made a reasonable effort this year to meet the needs 
of the VA health care system.  We protected appreciate this Committee 
and Congress rejecting the proposed enrollment fee and increased 
prescription drug copayments recommended by the Administration.


Congress also approved legislation in previous years to establish eight 
priority enrollment groups for VA health care.  We believe veterans in 
category eight should be allowed access to the VA health care system.  
Also, veterans with catastrophic disabilities were allowed to enroll in 
category four, even though their disabilities were non-service-
connected, and regardless of their incomes. However, they would still be 
required to pay all fees and copayments.


PVA believes because of the nature of their disabilities, they require a 
lot of care and lifetime of services.  Many times, VA is not only the 
best resource; it is the only resource for a veteran with a spinal cord 
injury. These veterans should not have to pay the fees and copayments 
necessary to receive these specialized services.


PVA was pleased that the Committee recommended a significant increase in 
funding for medical and prosthetics research in its budget views and 
estimates.  Unfortunately, the appropriations bill only provided an 
increase of 13 million, for a total of 412 million.  Research is an 
essential mission for our nation's health care system.  VA research is 
still grossly underfunded in comparison with the growth rate of the 
federal research efforts.


One area we remain concerned about is funding for construction projects.  
The appropriations bill provides nearly 1.15 billion less than the 
Independent Budget recommendations for major construction.  The bill 
also provides no funding for the new spinal cord injury center in 
Milwaukee, Wisconsin, or funding for the replacement medical center in 
the Denver, Colorado area.


We would also identify the Committee that in the Denver area, there is a 
new spinal cord injury Center to be identified with that medical center.


The appropriations bill also provides 295 million less than the 
recommendations for minor construction.  Many VA facilities require 
significant upgrades and overhauls.  The VA appropriations Subcommittees 
in the House and Senate insert language in their VA funding reports for 
fiscal year 2001 requiring VA to establish centers of excellence to 
conduct research in the field of neurodegenerative diseases prevalent in 
the veterans population.  VA identified two fields of inquiry for these 
centers: Parkinson's disease and multiple sclerosis.  The VA then 
established the Parkinson's disease research and education clinical 
Center, and the multiple sclerosis centers of excellence.


In 2001, these centers represent a successful strategy to focus the 
Veterans Health Administration on systemwide service and research 
expertise to address the critical care segments of the veteran 
population.


Earlier this year, the Senate approved S-2694, that would make permanent 
the authorization of these centers.  We urge the Committee to adopt 
legislation which would codify these centers in Title 38.


PVA is also concerned that the VA continues to experience a serious 
shortage of qualified board-certified spinal cord injury positions.  In 
some VA hospitals, the recruitment of a new chief of service has been 
prolonged, with acting chiefs assigned for indefinite periods of time. 
We are even more concerned about the continuing shortages of nurses, 
particularly in the spinal cord injury units.


PVA believes that basic salary for nurses who provide bedside care to 
these spinal cord injured veterans is too low to be competitive with the 
community hospitals in the area. This leads to high attrition rates as 
these nurses seek better pay in the community.  Recruitment and 
retention bonuses have been an effective tool for several SCI centers. 
Unfortunately, these are localized efforts by individual VA medical 
facilities.  We believe the veterans health administration should 
authorize substantial recruitment incentives and bonuses to retain these 
highly professional and qualified nurses.


PVA calls on Congress to conduct more oversight on the VA health care 
administration in meeting its nurse staffing requirements for the SCI 
units, as outlined in VHA directive 2005-001.


PVA is also concerned with recent trends to reduce the ability of the VA 
to provide long-term care to the aging veterans population.  The 
Veterans Millennium Health Care Act benefit, public Law 106-117, 
required VA to maintain its 1998 VA nursing home average daily census 
mandate of 13,391 beds. VA's average daily census for VA nursing homes 
is projected to decrease to a new low of 9795 beds, in fiscal year 2006. 
The VA is ignoring the law, serving fewer and fewer veterans in its 
nursing home care program.  PVA strongly feels that any repeal of the 
capacity mandate will adversely affect veterans, and a step towards 
allowing VA to reduce its current nursing home capacity.  This is not a 
time for reducing VA nursing home capacity, with the increased number of 
veterans looming on the horizon for long-term care.


Furthermore, we urge the Committee to conduct an aggressive oversight to 
ensure the VA is fully funding statutory obligations to provide long-
term care.  PVA would like to offer a view improvements to benefits 
provided by VA. PVA members are the number one beneficiary for the 
special adaptive housing grant, and the automobile adaptive grant. For 
both the special adaptive housing grant and the automobile grant, we 
believe an automatic annual adjustment indexed to the rising cost of 
living should be applied. Furthermore, the Independent Budget 
recommendations recommends the adaptive automobile grant should increase 
to 80 percent of the average cost of a new vehicle, to meet the original 
intent of Congress, in creating that legislation. The House of Veterans 
Affairs Subcommittee on economic opportunity considered H.R. 4791 
earlier this year.  We hope this Committee will move this legislation 
forward.


We have also identified some critical issues for fiscal year 2008, as 
requested by you, Mr. Chairman.  The Independent Budget for veterans' 
service organizations recently began planning for fiscal year 2008 by 
developing some critical issues.


First, we believe the adequate funding for veterans health care is 
essential, as mentioned by my associates.  We continue to stress the 
need for budget process reform, removing VA health care funding from the 
discretionary process, and making it mandatory.


Second critical issue is mental health care.  It has become more 
apparent that many servicemembers returning from Iraq and Afghanistan 
are experiencing psychological disorders.  It is imperative that we do 
not allow these men and women to slip through the cracks.


Third, as previously mentioned, we have serious concerns about the 
construction and infrastructure.  VA construction projects have suffered 
in recent years as a result of a moratorium on new construction 
resulting from the Capital Assessment Realignment Enhancement Services, 
the CARES process.  This has also left a significant backlog of critical 
maintenance and infrastructure upgrades.  We hope that this Committee 
and Congress will devote serious attention to the infrastructure needs 
of VA in the upcoming year.


Once again, this year the claims backlog is one of our critical issues.  
We have appreciated this Committee's efforts in recommending an increase 
in 200 full-time employees for direct compensation to improve the claims 
process.  Unfortunately, the military quality of life and Veterans 
Affairs appropriations bill does not include additional funding to allow 
the VA to hire these staff.


Another continuing issue for the Independent Budget is the seamless 
transition of servicemembers.  The seamless transition includes not only 
health care services, but benefits as well.  We are advocating for a 
single electronic health record for all transitioning servicemembers, to 
ensure that VA and the military can best provide their health care needs 
when necessary.  We believe the VA electronic health record is the 
standard that should be set for all federal health care records.


Finally, Congress should continue to invest much needed resources in the 
National Cemetery Administration.  With new national cemeteries opening 
this year and next, we must ensure that the National Cemetery 
Administration can properly maintain these national shrines.  In the 
end, all veterans and their family members should be provided a 
dignified setting in their national or state veteran's cemeteries.


PVA appreciates the opportunity to present our views today, and I will 
be more than happy to take any questions. Thank you.


[The statement of Louis Irvin appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


STATEMENT OF MS. ROSE LEE



The Chairman.  Thank you very much for your testimony.


Ms. Lee, you are now recognized.


Ms. Lee.  Good afternoon, Mr. Chairman, Representative Filner, and 
members of the House Veterans Affairs Committee. I would like to thank 
you for the opportunity to submit testimony to you on behalf of all Gold 
Star Wives to review last year and look forward to this coming year.  My 
name is Rose Lee.  I am a widow, and the chair of the Gold Star Wives 
Committee on Government Relations.


I wish to thank many Gold Star Wives for attending this hearing today 
who are in the audience.  You have already acknowledged Joan Young, our 
National President.  We also have Martha Didamo, our Chairman of the 
Board.  And then we have some members of the Government Relations 
Committee, which included three of the newer widows of the Iraq war. And 
then of course, our members of the Potomac Chapter, our local chapter.  
They are all back here, and I just want to let them know that we 
appreciate them being here.


The Gold Star Wives of America Inc. was founded in 1945, and is a 
congressionally-chartered service organization comprised of surviving 
spouses of military servicemembers who died while on active duty, or as 
a result of a service- connected disability.  We could begin with no 
better advocate than Mrs. Eleanor Roosevelt, newly-widowed, who helped 
make Gold Star Wives a truly national organization.  Mrs. Roosevelt was 
an original signer of our certificate of incorporation as a member of 
the Board of Directors.


Thank you for this opportunity, and for your continued support of 
programs that directly support the well-being of our servicemembers, 
widows, and their families.  Gold Star Wives applaud the efforts of this 
Committee, knowing that together we can continue to make a difference in 
the lives of this group, a group that no one would choose to voluntarily 
to be a part of.  It is imperative that the difficulty of the sacrifice 
of our husbands' lives be mitigated to the degree possible by providing 
support for the survivors.


There are many issues still pending before the Congress that mean a 
great deal to the membership of Gold Star Wives. As we are moving 
forward, now is the time to close out some of these legislative issues.  
Gold Star Wives has no greater priority than to eliminate the offset to 
the Survivors Benefit Plan, SBP, dollar for dollar by the amount of the 
Dependency and Indemnity Compensation, DIC, stipend.


You are well familiar with this topic.  We have been addressing this 
issue for several years, and I want to thank Representative Henry Brown 
for introducing H.R. 808 on this issue.


In essence, a servicemember's disability results in voiding or reducing 
the benefits that a servicemember purchased from the SBP.  While this is 
an issue being addressed in conference of the fiscal year 2007 National 
Defense Authorization Act, we urge you as individuals, and as the 
Committee together, to encourage your colleagues to make this right.  
DIC is within your jurisdiction.  All we are seeking is to assure that 
survivor benefit plan annuities for those eligible will not be reduced 
by the amount of dependency and indemnity compensation, to which they 
are separately entitled.


This is an issue from last year.  It is a current issue. We would urge 
your help that this not become an issue for next year, but be resolved 
in this session of Congress.


We have been pleased with the interest in the House, and by 
Representative Bilirakis in particular, in providing for decreasing the 
remarriage age for retention of survivors benefits to age 55.  You will 
recall that the current public law permits surviving spouses who remarry 
after reaching age 57 to retain their VA survivor benefits.  It also 
provided for a one-year period to apply for reinstatement for those who 
remarried before the law was signed, but that period expired in 
December, 2004.


Because the retroactive period was limited to one year, and outreach was 
limited, many eligible survivors may not have been aware of their 
eligibility to be reinstated.  Mr. Bilirakis's H.R. 1462 is a bill that 
we need to focus on now to address these issues.  It is time to get it 
done.


We have testified before this Committee previously, and before the 
Veterans Disability Benefits Commission, for a review of the DIC 
program, to ensure that all veterans' survivors are covered adequately, 
and have equity with other federal and military survivor benefits.  
There are some widows dependent only on their monthly DIC check, living 
below the poverty level.  Current DIC is set at $1033 monthly, which is 
only 41 percent of the disabled veterans compensation paid by the VA.  
Survivors of federal workers have their monthly annuities set at 55 
percent of the disabled retirees' compensation.  We seek to raise DIC 
payments to 55 percent of the current VA disability compensation.  That 
would improve the DIC payments to $1316 monthly.


As you can see, we are not seeking exorbitant amounts. We are simply 
seeking fairness across the government, to modestly help deserving 
survivors.  Therefore, we again ask the Committee for a review of the 
DIC program.


Recently I received this letter, and it reads, quote, `` Thank you for 
the requested DIC review.  Since my benefits began in 1957, which was 
before the SBP was in effect, it seems that the increases in DIC have 
not progressed as have other survivor programs.  The cost of living has 
increased so much, it is extremely difficult to keep up with it.  At age 
79, I am still working, trying to pay debts, and wondering how to pay 
the undertaker.  If there is any way we, who are dependent upon DIC 
survivors benefits can be of assistance in the execution of this review, 
please inform us.  Sincerely,'' unquote.


There are inequities among payments for the child survivors that need 
attention.  The additional monthly $250 Child DAC payment per family 
only applies to survivors of deaths after January 1, 2005.  This should 
be linked to October 7, 2001.  We thank Representative Michael Michaud 
for introducing H.R. 1573, which provided for this additional payment to 
families.  It makes no sense that the survivors of those who died first 
should be prohibited from accessing a benefit given to survivors of 
those who died later in the same war.  Thanks to representative Shelley 
Berkley for introducing the amendment, which was approved by the House, 
to include a COLA for the $250 DIC allowance per family.  The lack of 
COLA has dropped the value of the allowance to about $240 this year.  We 
would request the Committee to assure that these inequities be 
corrected.


We also seek to provide a dental plan to beneficiaries of the civilian 
health and medical program of the Department of Veterans Affairs, CHAMP 
VA.  With no coverage now, Gold Star Wives seeks for widows and all 
CHAMP VA beneficiaries the ability to purchase a voluntary dental 
insurance plan. There are a few other issues that need attending that 
have been brought to your attention previously.  There are widows whose 
husbands died in a VA hospital due to wrongful VA hospital care, who 
receive only DIC, without any other VA benefits under title 38 U.S. Code 
1151.  We urge the Committee to support the measures necessary to allow 
these widows to be entitled to the CHAMP VA benefit.


We are seeking legislation to remove the disabled under age 65 part B 
penalties and interest for late enrollment to CHAMP VA, and promote a 
feasibility study to convert VA facilities to long-term care facilities, 
which would welcome widows and widowers.


The Chairman. Mrs. Lee, if you could summarize just a little.


Ms. Lee.  Yes.  I have just a very little, Mr. Buyer, thank you.


Surviving spouses who are on active duty should be able to use the 
educational benefit derived from her deceased husband while still 
serving on active duty.  Currently, the active-duty widow must resign 
from the military in order to use the derived educational benefit under 
chapter 35.


Not in my written testimony is something about mental health.  It is an 
issue affecting widows and children.  It has become more prevalent 
recently.  I have heard from new widows about this more and more.  VA's 
vet centers provide counseling, which is wonderful, but it is not always 
nearby. TRICARE does not provide grief counseling, either.


Finally, Gold Star Wives supports the creation of an office for 
survivors with the Department of Veterans Affairs, and the Department of 
Defense, to ensure improved delivery of benefits, information, and 
benefits to survivors.


In conclusion, we want neither our widows nor their children to be 
forgotten.  We can understand and encourage your intention to the needed 
services of the servicemembers served our country, who may return 
wounded, who may gave his life.  When the latter occurs, we want you 
never to forget the family he leaves behind.  They have made their own 
personal lifelong sacrifice.  We ask again to show the spirit of this 
nation by not forgetting these widows, unfortunately whose numbers grew 
daily, and their children.


I thank this Committee for opening this opportunity to hear us again, 
and allow for further awareness of issues facing survivors daily.  We 
will be happy to continue to work with the Committee and give our time 
and resources on all issues impacting survivors.


Thank you, sir.


[The statement of Rose Lee appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


STATEMENT OF JOHN R. DAVIS



The Chairman.  Thank you, Ms. Lee.  Mr. Davis, you are recognized.


Mr. Davis.  Thank you, Mr. Chairman.


Mr. Chairman and distinguished members of the Committee, the members of 
the Fleet Reserve Association appreciates this opportunity to review the 
past fiscal year and look ahead to the next year.  The FRA extends 
sincere gratitude for the concern, and progress to date generated by the 
Committee in protecting, improving, and enhancing benefits that are 
truly deserved by our nation's veterans.


FRA appreciates Chairman Steve Buyer and the House Majority Leader 
meeting with FRA National President, Ed Zerr, in June, to discuss the 
data security problem at the Department of Veterans Affairs.  One of the 
more worrying aspects of the case is that the data theft was not 
reported to the Secretary for two weeks.  It was originally reported 
that less than 50,000 names were stolen when in fact, a theft of 
personal information from the home of a VA employee included more than 
26 million veterans, and more than 2 million active duty personnel.


Even though the data was recovered and apparently not accessed, the VA 
and congressional oversight Committee should continue to pursue 
improvements in the data security at VA. We hope that data theft 
security is not like a shooting star in the legislative arena that is 
very bright in the beginning, and then quickly burns out and everyone 
forgets about it.  Even more recent theft apparently indicates that data 
security at the VA is going to be an ongoing concern with veterans, with 
the news that a computer containing information on up to 38,000 veterans 
treated over the last four years at two VA medical centers in 
Pennsylvania is missing from the Virginia office of a VA contractor.


If there is any silver lining in this episode, is that upon learning the 
computer was missing, the VA took immediate steps to notify the 
appropriate senior VA leadership, congressional offices, Committees, 
VA's office of Inspector General, and other law enforcement authorities, 
including the FBI and Department of Homeland Security.


FRA appreciates the efforts of the House of Veterans Affairs Committee 
and its Senate counterpart for their tireless efforts to improve data 
security at the Department of Veterans Affairs.


FRA fully supports the legislative effort of this Committee that 
culminated in Chairman Buyer's introducing and the full Committee 
approving H.R. 5835.  The bill aims to create more accountability at the 
VA for data security.  It would create an Office of Undersecretary of 
Information Security, and would require the VA to report to Congress any 
data theft, and would provide credit monitoring and fraud remuneration 
for affected individuals.


Additionally, the bill would require a study on using personal 
identification numbers, rather than Social Security numbers for veterans 
benefits.  The full House should expedite passage of this important 
legislation as soon as possible to give the Senate an opportunity to 
pass this legislation for the President's signature before the end of 
the 109th Congress.


FRA is mindful that legislation alone cannot fully remedy an internal 
bureaucratic culture that gives data security a low priority.  But FRA 
believes the public expects, and the veterans community demands, that it 
is now time for Congress to do their part to help correct this problem.


FRA strongly supports adequate funding for DoD and VA health care 
resource sharing in delivering seamless, cost effective, quality 
services to personnel wounded while participating in Operation Enduring 
Freedom and Operation Iraqi Freedom, other veterans, servicemembers, 
reservists, military retirees, and their families.  That is why FRA 
supports the recent executive order to require federal agencies who 
channel health care to work together to implement a standardized 
electronic health record.


The agencies, including the VA, will coordinate with the Department of 
Defense so that the clinical information can be interchanged 
efficiently.  A standardized electronic health record will make sharing 
information between health care providers more cost effective for 
everyone, and will eliminate the cost of record duplication.


FRA also supports H.R. 4992, sponsored by Representative Kelly of New 
York.  This Bill changes the law to allow the VA to bill Medicare, which 
will enable veterans to use Medicare coverage to help them pay their 
bills at a VA hospital.  It is puzzling to our members why this program 
has not been given serious consideration and enacted long ago.


With regard to the VA medical and prosthetic research, the VA is widely 
recognized for its effective research program, and FRA continues to 
strongly support adequate funding for medical research, and for the need 
of the disabled veterans.  The value of both programs within the 
veterans community cannot be overstated.  Noteworthy is the fact that 
the fiscal year 2007 proposed a budget for medical and prosthetic 
research shows only a slight one percent increase in the most successful 
aspect of all VA medical programs.  FRA is concerned about relying on 
other government agencies to help support and fund important research 
related to disabled veterans.


FRA endorses recommendations from the Committee on the budget to convert 
veterans health care count from discretionary spending to mandatory 
spending.  FRA understands the jurisdictional and other challenges 
associated with this issue, and believes that veterans' health care is 
as important as other federal benefits funded in this manner.  
Regardless of the methods used, the association supports any efforts to 
help assure full funding for VA health care, to ensure care for all 
beneficiaries.


I would like to talk a little bit about claims processing.  Claims 
processing delays are a continuing concern.  VA can promptly deliver 
benefits to entitled veterans only if it can process and adjudicate 
claims in a timely and accurate fashion.  Given the critical importance 
of disability benefits, VA has a paramount responsibility to maintain an 
effective delivery system, taking decisive and appropriate action to 
correct any deficiencies, as soon as they are evident.  As stated in our 
February testimony, VA has neither maintained the necessary capacity to 
match and meet its claims workload, nor correct its systematic 
deficiencies that compound the problem of inadequate capacity.


Rather than making headway and overcoming the chronic claims backlog and 
consequent protracted delays in claims disposition, VA has actually lost 
ground on the problem.  The backlog of pending claims is growing 
substantially larger. And now even the Court of Appeals of the veterans 
claims is experiencing a growing backlog of cases.


FRA commends the Chairman for his statement at the December 8, 2005 year 
in on VBA claims processing, and agrees that, `` the increase in 
disability claims can be directly related to the increase in U.S. 
military operations abroad. Doing more with less is not a strategy for 
success.''


An increase in staffing levels within the VBA claims processing system 
is essential to moving forward to reduce this backlog.


FRA appreciates Chairman Buyer's and the Committee's interest in the 
MGIB reform, and it supports provisions in the Senate version of the 
NDAA that allows reservists to draw benefits up to 10 years after 
leaving the reserves. Currently, only active-duty members can draw 
benefits after service.


The Montgomery G.I. Bill is important, and aids in the recruitment and 
retention of high-quality individuals for service in the active and 
reserve forces, assists in the readjustment of servicemen and women to 
civilian life after they have completed military service, extends the 
benefits of higher education to servicemen and women who are not able to 
afford higher education, and enhances the nation by providing a better-
educated and productive workforce.


Double-digit education inflation is dramatically diminishing the value 
of MGIB.  Despite recent increases, benefits fall well short of the 
actual costs of education at a four-year public college or university.  
In addition, thousands of career servicemembers who entered service 
during the VEEP era, but declined to enroll in that program--in many 
cases because of government advice, from government officials--have been 
denied an MGIB enrollment opportunity.


In addition, the nations active duty guard and reserve forces are 
effectively being integrated under the total force concept, and 
education benefits under the Montgomery G.I. Bill should be restructured 
accordingly.


FRA supports the total force Montgomery G.I. Bill for the 21st century.  
The FRA supports integration of active and reserve forces program.  The 
MGIB program under the title 38 is very, very important, and will 
provide an inequity of benefits for services performed, enable improved 
administration, and facilitate accomplishments of statutory purposes 
intended by the Congress for the MGIB.  Currently, mobilized reservists 
must leave behind MGIB benefits upon separation unless the separation is 
for disability.


I would like to talk a little bit about the cemetery, National Cemetery 
Administration.  FRA is grateful for the Committee for recommending an 
additional 14 million in NCA operations and maintenance, and an 
additional 16 million in NCA construction for 2007.  As part of the 
veterans education benefits act of 2001, the government is to provide 
grave markers to veterans whenever requested, even if there is another 
marker on the grave.  However, as written, the law only applies to 
burials after December 27, 2001.  FRA supports H.R. 3082, which would 
repeal this expiration, and expand application options for veterans 
buried in private cemeteries.


FRA is thankful to this Committee, Congress, and the President of the 
United States, for approving H.R. 5037, the Respect for America's Fallen 
Heroes Act.


We appreciate that, and with that I will end my testimony, and wait for 
any questions of stop thank you.


[The statement of John R. Davis appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


The Chairman.  Thank you very much.


Representing the Vietnam Veterans of America is National President John 
Rowan, who was elected at VVA's 12th national convention in Reno, 
Nevada.  He enlisted in the United States Air Force in 1965, two years 
after graduating from high school in Queens, New York, went to language 
school, where he learned Indonesian and Vietnamese.  He served with the 
Air Force 6990 security squadron in Vietnam and Okinawa, in helping 
direct bombing missions.  After his honorable discharge, he began 
college in 1969, receiving a BA in political science from Queens 
College, and a Masters degree in urban affairs at Hunter College.


He recently retired from his job as the investigator for New York City's 
Comptrollers Office.  Prior to his election as VVA's National President, 
he served as VVA's veterans service representative in New York City, and 
he was a founding member and the first resident of VVA's chapter 32 in 
Queens.


National President Rowan, you are recognized. 


STATEMENT OF JOHN ROWAN



Mr. Rowan.  Thank you.  Good afternoon, Mr. Chairman, Chairman Buyer and 
Ranking Member Filner, and distinguished members of the Committee.  On 
behalf of the members and families of the Vietnam Veterans of America is 
my privilege today to offer our comments concerning what has been 
accomplished in the arena of Veterans Affairs during fiscal year 2006, 
what remains to be done in waning days of this fiscal year, and what 
needs to be addressed by this Committee in fiscal year 2007.


First, let me review the simple and straightforward legislative agenda 
of VVA.  First, to secure adequate resources to properly administer the 
network of services that our nation's veterans have earned.  This 
includes a more adequate sum for operation of VA medical centers and 
other vital health care functions.  It also included increasing the 
number of adjudicators in the compensation and pensions system, and 
counselors and vocational rehabilitation and education.


Second, we ask that you and your colleagues take action to greatly 
enhance the accountability of all employees in the VA, but especially 
managers and political appointees.  This would include being held 
accountable for accurate adjudication decisions as opposed to just 
moving files forward in the C&P services that appears to be the case 
now. It is also ensuring that contracts are drawn in such a manner as to 
systematize the reporting of contracts and unit cost, with an eye 
towards getting the most goods and services for the least expenditure of 
each taxpayer dollar.  It would also include greater accountability in 
regard to access to medical and other services, as well as clinical 
outcomes.


Third, we ask that you take steps to greatly enhance outreach by the VA 
to inform veterans of the earned benefits at the VA and elsewhere in the 
federal government.


We have had some movement in the first two, and unfortunately, nothing 
in the third.


As to what did happen this year, VVA commends you on your activism in 
tackling some of the issues of critical importance to veterans, 
particularly our newest veterans. You have sought to give real meaning 
to the term, `` seamless transition,''  have forced the active 
cooperation between the VA and the Department of Defense in providing 
assistance to newly-minted veterans transitioning from active duty.  You 
have also pushed the VA to greatly improve the way it conducts its 
business in regard to information technology, and you have rejected the 
office of management and budget notion that the co-pay for prescription 
drugs be increased, and a user fee be imposed on certain veterans who 
avail themselves of the VA health care system.


We don't need to belabor the whole laptop computer theft problem; just 
to know the VVA supports and applauds your legislative initiative to 
resolve these deficiencies within the VA, and we hope that that becomes 
successful, and we will work to push the Senate on this legislation.


However, numerous initiatives that have been started have yet to be 
completed.  These include cutting the enormous backlog of cases awaiting 
adjudication by personnel of the Veterans Benefits Administration.  We 
know the undersecretary of Veterans Affairs for Benefits Cooper is 
focusing on this problem.  We hope his fate will not be the same as that 
of the former Secretary Principi, whose goal to significantly cut this 
backlog was defeated by the backlog.


It is interesting to note, too, that IOM report on PTSD talked about the 
fact that the VA needed to totally utilize its own methods for 
adjudication of C&P exams in PTSD, which unfortunately would lengthen 
some of the process, and would also require more assistance on the VHA 
side.


VVA maintains that if the VBA is to make a permanent dent here, it needs 
more adjudicators who are well-trained, can pass a rigorous competency-
based examination, and are properly supervised.  And these adjudicators 
must endeavor to get it right the first time.  Quality control is of 
essence, here.  We think that you will find that most veterans are okay 
with the DNC process itself.  What they are upset about is how long it 
takes before a decision is rendered and-or lack of sharing the reasons 
for rejection in a clear manner if the claim is denied.


VVA thanks you and your colleagues on both sides of the aisle for taking 
action that led appropriators in the House to add onto the amount slated 
for the veterans' medical care system, for research, and especially, for 
adding additional adjudicators and VRE&E specialists.  We really want to 
thank you, Congressman.  We know you took a big initiative on getting 
the additional FTE on the VBA side.


About the only thing that could be said good about the VBA is that their 
computer systems are so bad that nobody can probably steal information 
from them.  And it is pretty unbelievable how different it is between 
VHA and VBA.  One is getting awards, and the other is totally useless, 
and unfortunately, a significant amount of hunting needs to be put on 
that level.  And with the IT programs, hopefully, it is nice to have 
somebody in charge, but if they don't have the funding, they are going 
to be in trouble.


Assured funding is still an issue with us, and we urge and hope that a 
bipartisan effort will be made to rectify the situation the next 
Congress.  We hope that like minds from both sides of the aisle can come 
together to grapple with this issue with input from the veterans' 
service organizations, propose a legislative solution.  Any solution of 
course must contain provisions for accountability.  This is likely an 
initiative for the 110th Congress, unfortunately.


We hope that the current Congress will address and pass appropriate 
legislation to permit veterans to secure legal representation when 
filing claims for disability and compensation before the Veterans 
Benefits Administration, as was passed in the Senate.  We know that some 
have expressed views that such a bill will only make adversarial a 
process that should be cooperative.  We believe the process is already 
adversarial.  I have served as a service rep for three years, and I 
believe that to be the case.


Others worry the passage of this bill will herald the demise of 
veterans' service organizations.  I really don't think it is going to 
happen.


We have no complaints with the people who are doing the veterans service 
rep work out there, service officers.  They are doing yeoman work.  I 
have never seen an under-worked service officer, ever.  In fact, what 
the problem is, we don't have anywhere near enough of them.  Especially 
if we really try to reach out to the veterans to explain to them what 
their rights are, and unfortunately, many of them do not know what their 
rights are.


I know there are some concerns, and I think we can deal with those, 
about what kind of attorneys we are going to have in here.  Having gone 
through the Social Security process with my son who had to file for 
disability, we had to incur an attorney on that process, because 
otherwise we would never have made it through it.  And I think that 
those kinds are the same kinds of attorneys that are going to do the 
same kind of work for veterans that they do on the side of Social 
Security, which is where you can look to see how that system will or 
will not work.


We also applaud Mr. Thompson of California and Mr. Rehberg of Montana, 
who long have been in favor of H.R. 4259, the Veterans Right to Know 
Act.  This bill would create and empower commission to look into the 
testing of chemical and biological weapons, to determine if health 
issues suffered by veterans who participated in these tests might have 
been caused by toxic exposures to these tests.  We know that 
jurisdiction of this bill is in the armed services Committee, but you, 
Chairman Buyer, and ranking Democratic Member Filner have significant 
weight with that Committee.


We also ask that you hold a hearing, or just take action to extend the 
authority of the VA to provide a full physical with national protocol 
for all veterans who participated in any chemical or biological weapons 
research, such as Project 112, Project SHAD, or any other activities by 
any branch of the federal government.


Similarly, we urge you to take steps to extend such authority for such 
examinations for those exposed to Agent Orange and other toxins in the 
Vietnam theater of war.


Regarding PTSD--and I am running out of time--in regard to Congressman 
Filner's remarks earlier, we know how to treat it.  We believe we do.  
The problem is we don't have the funding for it.  And it is not just the 
new folks coming home.  And certainly, they are a big part of this 
problem. The real problem is still Vietnam veterans.  Many veterans we 
are finding as they retire out, and come home and don't have to be 
workaholics anymore, a lot of things that they were able to hide in a 
box for the last 40 years come back to haunt them.


Secondly, they sit at home and what do they see on TV? A war very 
similar to the one they saw where people are blowing them up on every 
given day, and we see death all around us, and it just brings back all 
kinds of things.


The other thing, too, is that many people did not file claims of PTSD 
because they were afraid of the stigma, which is an issue we even have 
with the new veterans.  And that may have been inhibiting them for all 
these years.  Now, when they are retired, they don't have to worry about 
losing their jobs if people think they are crazy.  And it is a real 
issue, and I think it is going to be a real issue of getting the newer 
veterans to come in and get treated.  At least they know what it is.  We 
didn't.


The other thing is secondary PTSD for the children and families of 
veteran.  In Australia, they treat the children of Vietnam veterans up 
to the age of 35 now for secondary PTSD, because one of the studies they 
did found that an extraordinary suicide rate amongst the children of 
Vietnam veterans over there.


There are many other issues that we would push for, including the 
Montgomery G.I. Bill, as many of the others had put forward.  We also 
believe that we are concerned about--I really listened, being coming 
after, listening to the blinded vets really intrigued me.  Many Vietnam 
veterans, because of their agent orange-related diabetes disabilities, 
are going to have vision problems, and they are already having vision 
problem, and it really disturbs me to listen to my colleague from 
Blinded Vets telling me how poorly the VA is handling vision issues.  
And I can tell you as a service rep, I have had a lot of retinopathy 
cases, you know, watching veterans in their 50s and 60s go blind.


Thank you, Mr. Chairman, and thank you members of the Committee.


[The statement of Michael Walcoff appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


STATEMENT OF PAUL MORIN



The Chairman.  Thank you Mr. Rowan.  Commander?


Mr. Morin.  Thank you, Mr. Chairman, members of the Committee, for this 
opportunity to be here representing the American Legion and its 2.7 
million members.  I would like to take this opportunity to introduce the 
National President of the American Legion Auxiliary, JoAnn Cronin, and 
the National Commander of the Sons of the American Legion, Earl 
Ruttkofsky, with five national vice commanders who represent the 
Crossroads of America--


The Chairman.  Could I have you and the gentleman change seats?


Mr. Rowan.  Sure.


Mr. Morin.  Thank you for them much.


Mr. Rowan.  You are welcome.


Mr. Morin.  With young American servicemembers continuing to answer the 
nation's call to arms in every corner of the globe, you must now more 
than ever work together to honor their sacrifices.  As veterans of 
global war on terrorism return home, they are turning to the VA not only 
for health care, but also for assistance in transitioning back to 
civilian world.  In order for that to occur, veterans' service 
organizations must be afforded the opportunity to present testimony 
before the Committees that oversee the operations of the Department of 
Veterans Affairs. Mr. Chairman, while I am thankful for the activity to 
address this esteemed body, the American Legion is extremely 
disappointed in your decision to cancel the joint hearings with the 
Senate Veterans Affairs Committee.  Historically, the Veterans Affairs 
Committee in both the House--in both Houses has been an example of 
bipartisan progress.  However, that seems to be quickly fading norm.  
Legionnaires from all over the country have traditionally traveled to 
Washington DC to attend the Commanders' Joint Hearing, and to visit with 
their congressional delegation to express their concerns for veterans' 
issues.


We owe it to the brave men and women who have served, and who are now 
serving, to work together to ensure VA is funded at levels that will 
allow all enrolled, eligible veterans to receive quality health care in 
a timely manner. As National Commander of this great organization, I 
stand ready to work with you to accomplish these goals.


In an effort to provide a stable and adequate funding process, the 
American Legion fully supports assured funding for veterans' medical 
care.  Under the current discretionary funding method, VA health care 
funding has failed to keep pace with medical inflation and the changing 
needs of veterans population.  VA has been forced to ration care by 
denying service to eligible veterans.  VA has had to forgo the 
modernization of many of its facilities, and purchase of necessary 
state-of-the-art medical equipment.


VA is subject to an annual funding battle for limited discretionary 
resources, and Congress has had to provide emergency funding to cover 
budgetary shortfalls. Additionally, the current discretionary funding 
process leaves the VA facilities' administrators without a clear plan 
for the future.


The American Legion urges this Committee to support legislation that 
would establish a system of capitation-based funding for VHA.  The 
Veterans' Health Administration is now struggling to maintain its 
national dominance in the 21st century.  Health care, with funding 
methods that were developed in the 19th-century.  No other modern health 
care organization could be expected to survive under such a system.  The 
American Legion believes that the health care rationing for veterans 
must end.


It is time to guarantee health care funding for all veterans.  The 
American Legion believes that Congress should allow the VA to bill, 
collect, and retain third-party reimbursement from Medicare, on behalf 
of Medicare-eligible veterans.  Nearly all veterans pay into Medicare 
for their entire working lives.  However, when they are most likely to 
need medical services from the hospital system designed specifically for 
them, they must turn elsewhere because VA cannot bill Medicare.  This is 
wrong, and I urge you to join in the fight to correct this injustice.


Additionally, all third-party reimbursements, copayments, and 
deductibles, should be added to the budget, not counted as an offset 
against it.  The American Legion firmly believes that making the VA 
Medicare provider, and designating the VA medical care, as mandatory 
funding items within the federal budget, will enable the VA to fulfill 
its mission to care for those who have borne the battle.


The American Legion is disappointed in the slow progress in the local 
advisory panel--better known as LAPS--process, and the CARES initiative 
overall.  Both stage one and stage two of the process included two 
scheduled LAP meetings at each of the sites to be studied, with a whole 
process scheduled to conclude on or about February 2006.  It wasn't till 
April 2006, after nearly a seven-month hiatus that Secretary Nicholson 
announced a continuation of the service at the Big Spring, Texas.  And 
like all other sites, it had only been through stage one.  Seven months 
of silence is no way to reassure veterans community that the process is 
alive and well.  The American Legion continues to express concerns over 
the apparent short-circuiting of LAPS, and the silence of its 
stakeholders.


The American Legion urges Congress to hold the VA accountable, and to 
ensure that those locations that are still waiting final decisions, and 
address as soon as possible.  Veterans in Las Vegas, Orlando, New 
Orleans, Denver, and Biloxi, deserve to know the future of their health 
care delivery system.


Upon conclusion of the initial CARES process, then-Secretary Principi 
called for $1 billion a year for the next seven years to implement 
CARES.  The American Legion continues to support that recommendation, 
and encourages the VA and Congress to move forth with focused intent.  
The American Legion recommends a separate $1 billion for the 
implementation of CARES in fiscal year 2008.


Mr. Chairman, the American Legion appreciates the strong relationship we 
have developed with this Committee.  With increasing military 
commitments worldwide, it is important that we work together to ensure 
that the services and programs offered through the VA are available to 
the new generation of American servicemembers who are now returning 
home.  You have the power to ensure that their sacrifices are indeed 
honored with the thanks of a grateful nation.  The American Legion is 
fully committed to working with each of you to ensure that the American 
veterans receive the entitlements they have earned.  Whether it is 
improved accessibility to health care, timely adjudication of disability 
claims, improved educational benefits or employment services, each and 
every aspect of these programs touches veterans from every generation.  
Together, we can ensure that these programs remain productive, viable 
options for the men and women who have chosen to answer the nation's 
call to arms; a very honorable profession.


The brave men and women who are serving in our armed forces in Iraq and 
Afghanistan and throughout the world deserve no less.  I look forward to 
working with each of you through the next year to improve the lives of 
all American veterans.  Thank you for this opportunity.


Mr. Chairman, I know of interest to you from your kind meeting with me 
yesterday, Resolution 149 of the Salt Lake convention we just concluded, 
I will read you the `` resolved'' clause.  The American Legion's 
national convention assembled in Salt Lake City, Utah, August 29 through 
31, '2006.


``That although the American Legion does not oppose the concept of 
attorney representation or the lifting of the current restriction on 
attorney representation in the VA system, the American Legion is opposed 
to any such measure as that does not include adequate safeguards, 
including but not limited to fee limits, training requirements, and-or 
competency performance certification requirements, and strict agency 
oversight to ensure the protection of the client.''


Thank you very much, Mr. Chairman.


[The statement of Paul Morin appears on p.  ]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


The Chairman.  Commander, how many resolutions did you pass at your 
convention?


Mr. Morin.  Two hundred and twenty-two.


The Chairman.  Could you get those to me?


Mr. Rowan.  Sure, we would be more than happy to.


The Chairman.  All right.  I would ask that you provide them to me, but 
not make them part of the record.  I mean, that is a lot of print.  But 
if you could please get those to me, I would appreciate that.


Mr. Morin.  I will be more than happy to.


The Chairman.  All right, then let us go ahead and start right there, 
now that I know the Legion's resolution. Let us go down the line here 
with a question that I had asked about attorney representation, faced 
with the language I have that came out of the Senate.


Purple Heart?


Mr. Poulter.  Mr. Chairman, as an organization, we have not taken an 
official position up to this point. However, as National Commander I 
think I can speak for our members, and I think that this process could 
really tie the Veterans Administration appeals process in a lot of 
knots. And I have got my own personal feelings that I think it is more 
about lining the pockets of the attorneys, as opposed to taking care of 
our veterans.


The Chairman.  All right.  I am going to go down the line so everybody 
will get to cover this.  If we were to go with Mr. Evans's approach 
about a lawyer is not permitted until after notice of disagreement, 
would it change your opinion?


Mr. Poulter.  We have national service officers, and they go through 
very extensive training to get their accreditation, through the VA.  I 
cannot imagine the amount of training that the attorneys would have to 
go to get online with this whole thing.  They would have to go through 
the same training, and it takes a long time to get that accomplished.


The Chairman.  All right, the question before us is, though, at what 
point would an attorney representation access the system; at the very 
beginning, or at the notice of disagreement?  That has no impact upon 
your opinion?


Mr. Poulter.  I don't think at the beginning.  I think that, you know, 
if later on, if somebody asked, `` You need an attorney?''  then that 
would be all right.


The Chairman.  All right.  Mr. Irvin?


Mr. Irvin.  Yeah, Paralyzed Veterans supported the Lane Evans Bill.  But 
at the same time we provided comment with regards to attorney fees and 
safeguards, similar to what the American Legion just mentioned, with 
regards to representation.  The Senate bill we do not support, just 
because it brings the attorney in, in the first part of the claims 
process.  We feel the VA still needs to have a system that provides a 
duty to assist, does a proper outreach to veterans, and assists them 
with filing their claims.


The Chairman.  Ms. Lee?  Does your organization have an opinion on this?


Ms. Lee.  Goldstar wives has not discussed it among our members, so I am 
going to pass on this.  Thank you.


The Chairman.  Thank you, ma'am.  Mr. Davis?


Mr. Davis.  We do not have a position either, but we do believe that 
there is a causal relationship between the processing delays, the claim 
delays, and the call for legal representation.  And instead of 
addressing the issue directly, of legal representation, we think the 
focus ought to be on fixing up the system so there are less delays, less 
complexity in the system, and that will, we think, reduce the--


The Chairman.  You got my agreement on that.  Mr. Rowan?


Mr. Rowan.  Well, as I pointed out, we are in favor of it, and we have 
been in favor of it.  We think a lot of the same arguments were made 
when we talked about instituting the Court of Veterans Appeals.


The Chairman.  Okay, let me narrow you here.  You favor the Senate's 
view on this, or Mr. Evans's position on this?


Mr. Rowan.  Mr. Evans' opinion is just a version of it.  We support it 
all.  We have no problem with the lawyers involved, period.


The Chairman.  Either of them.


Mr. Rowan.  We just think that it opens up a whole access to getting 
somebody to help the veteran go through what is an onerous process.


The Chairman.  Commander Morin, I know you are under restrictions with 
regard to your testimony.  Can you go beyond what this resolution has 
said?  Can I ask you whether or not you would support the Senate 
approach or the Evans approach?


Mr. Morin.  No.  We do not support any bill.  We support use of 
attorneys within the VA.  But what we want to see is restrictions in the 
Bill, that says there shall be a limit on attorney fees, there shall be 
a limit--


The Chairman.  Okay, you don't have to read that to me again.


Mr. Morin.  Okay.


The Chairman.  What about when they would access the system?


Mr. Morin.  Whenever they wish. If they want to wish from the beginning 
to hire a lawyer, and there are these safeguards in place, let them go 
ahead and do it.  I mean, to me, as a veteran's advocate, and as any 
veteran service organization, all right, we have an ending service 
office in all our organizations that is available for free of charge. 
And we would hope that would be the first avenue every vet would use.


But there is also some mistrust to us by our fellow own veterans.  And 
if they feel that comfortablity of going to a lawyer versus coming to 
us, so be it.  As long as if there are safeguards in the law.  And I 
stress that because we don't want to see in the law saying that the VA 
will regulate what the fees are, or what the educational training 
requirements are.


The Chairman.  Not often, and I look back to the 14 years I have been 
here, do we have a situation whereby you are in such complete counter, 
back-azimuth of DAV, VFW, and Amvets.  Why do you think that is?  Why do 
you find yourself in a complete opposition to them?


Mr. Morin.  The wishes of our members at our national convention, 
through a resolution, adopted this.  And this is as I have said, I speak 
from a resolution--


The Chairman.  All right.  In your personal opinion?


Mr. Morin. Yes?


The Chairman.  Why do you think legionnaires are in such complete 
opposition of Amvets, VFW, and DAV?


Mr. Morin.  I think they feel it only opens a process, it opens another 
door if veterans wish to use it.  And our own concern is that there are 
stipulations that the veteran would not be hurt by it.


The Chairman.  All right.  Mr. Filner?


Mr. Filner.  Thank you, Mr. Chairman.  I want to thank both panels here 
today.  Your testimony was very helpful.  I admire your expertise that 
comes from both your active duty status and your longtime service to 
your members.  You know the system, inside and out, we learn from that, 
and I appreciate everything you said.  Maybe with one exception, Mr. 
Buyer, there is a real unanimity on almost every issue.  I suspect that 
we can have a list of 20 or 50 items and, all of you would agree to it.  
You have given us the agenda for next year.  I pledge to Mr. Buyer, 
whatever position I am in, to work with you to try to realize as much of 
that agenda as we can.  There is remarkable unanimity on things.


I want to say to Mr. Poulter: When the Chairman introduces the bill to 
recognize National Purple Heart Day, I want to cosponsor it.  
Congratulations on the 225th anniversary.  We look forward to that 
celebration.


Several of you mentioned the conference of the Defense Authorization 
bill.  I am told that it has concluded, although even as a Congressman, 
they won't tell me what the results are until the report is published.  
But I have the sense, in regard to the Purple Heart for the POWs who 
died under non-combat but obviously--in our view--combat situations, 
that they acceded to the Senate position, which set up a commission to 
study it.  We will try to get that next year, if that is the case.  I 
don't know that, but that is the impression I got.


And I don't know what they did, Ms. Lee, to the SPP-DIC offset in that 
conference, but we will find out, I guess, in a day or so.  But thank 
you for being so persisent in following that.


Mr. Irvin, you know, San Diego's loss is Washington's gain.  
Congratulations on your new position.  He didn't mention in his bio that 
he has also recently married a very beautiful woman, so we congratulate 
you on that.


And I want to thank you for your position on the sense of who gets 
services at the veterans' hospitals, and benefits.  By definition, 
probably all your members are in a high category.  But you want the VA 
to serve all veterans, and I appreciate that very much, and thank you 
for that position.


And the PVA just recently had a 60th anniversary gala, and I was at the 
dinner, and I saw you give awards to Secretary Principi, Secretary 
Mineta, that were so well deserved.  Of course the King, Richard Petty, 
also got an award.  But thank you for allowing myself and my wife to be 
a part of that gala.  It was a very moving evening.  And I know each of 
you have those kinds of evenings, and they are all very moving, to talk 
to your members, and to meet them on a more personal basis, and see 
their dedication to improving the lot of everybody around us.


So thank you all.  I look forward to working on it.  This was set up by 
the Chairman as a preview for next year.  I think we have our agenda in 
front of us, and I look forward to working with you.  Ms. Lee, go ahead.  
I am sorry.


Ms. Lee.  Yes, regarding the attorney issue that you talked about 
earlier; are survivors included in the bills that are mentioned?  Lane 
Evans' Bill, I hadn't seen that at all.  It is?  Okay, thank you.  I 
guess we need to get a copy of that.  Thank you.


Mr. Filner.  I apologize, I just thought you were asking the Chairman.  
Okay, thank you.


The Chairman.  Mr. Brown?


Mr. Brown of South Carolina.  Thank you, Mr. Chairman, and certainly 
thank the members of the panel for being so patient.  They can 
understand our schedule, where we get unscheduled votes, and we will 
have one coming up pretty shortly again.  But I just wanted to just 
address a couple issues I guess that we brought up, and we appreciate 
the testimony.  And I think Mr. Filner is right.  I think that you all 
have given us some criteria for next year's appropriations if we can't 
get them done this year.


But next week, we are going to have a hearing next Thursday at 10:00 
o'clock on PTSD and TBI, and we have got, you know, some professionals 
coming in to give us some insight on that.  And then on the construction 
bill, this is the first construction bill that we actually passed in 
about 15 years, and I know we have some problems sometimes with 
partisanship, but it was really great, the way the bill was addressed in 
the Committee, and then went on the floor.  And normally we have, like, 
20 minutes for the proponents, and 20 minutes for the opponents.  And 
both sides talked on the bill, and so it passed unanimous, which is kind 
of unusual for anything to happen in the body today.


But I know we addressed some of those issues that was mentioned earlier.  
The construction at Biloxi at $310 million; in New Orleans, 100 million; 
Charleston, 70 million; in Denver, 98 million.  And so I am hoping that 
the Senate will be able to soon reconcile with them, so we can go ahead 
and get this signed by the President.


And in that initiative, we are going to need some support from you all 
to help with this.  I know there has been a lot of misinformation about 
how we are trying to combine some services between the VA and local 
hospitals. And I know in Charleston, we are looking to try and combine 
some services with the VA and the Medical University there. Already, 
there is a lot of sharing of resources.  Some 95 percent of the doctors 
that actually treat the patients at the VA hospital come from the 
Medical University.


And you know the cost of equipment is becoming, you know, exorbitant 
really to try to have everybody to own one piece.  I know we have got 
one imaging piece of equipment now we are trying to coordinate between 
the VA and Medical university, a piece of imaging equipment that 
actually can go in and identify a cancer cell, and they can go in and 
actually treat just, you know, the damaged cell, and not impact the good 
cells.  But that is a $6 million purchase, and everybody in town can't 
have one of those.


We went to New Orleans and actually saw, you know, the VA hospital--went 
down with Secretary Nicholson, and went to--the VA was actually flooded 
in the basement, but just down the street was, you know, of course, LSU 
Medical Center, Charity Hospital, you know, two or three other hospitals 
all in one row, and probably duplicating the same piece of equipment.  
So we believe that this is going to be a system that is going to be able 
to deliver high quality service by having specialized services available 
to all the veterans, at one location, and be a savings to the taxpayers, 
too.


But anyway, every time that we talk about it, even when we passed the 
bill in the House, we made sure that the VA had top priority on any of 
the services being provided.


So with that, Mr. Chairman, I yield back the balance of my time.  But I 
just wanted to bring that to your attention, and certainly solicit your 
cooperation and understanding as we work through this process.


The Chairman.  Thank you, Chairman Brown.


I would like to make a couple of comments, and I have a question.  This 
deals with the issues on seamless voc rehab and TAP.  The Subcommittee 
on Economic Opportunity held several hearings.  They have also had site 
visits on these topics.  Overall, as with an examination of any system, 
you find some shortcomings.  But measured on the whole, what we have 
learned, the TAP has been a reasonably successful program.  The student 
reviews that we have seen so far have been very favorable.


The seamless transition, I know that VFW had made some comments earlier, 
they had questioned as to whether or not they could actually point to 
anything that was successful. This one is going to be a maintenance 
issue, for as long as we are involved in these issues.  It really is.  
And I spoke with over 230 cardiac care physicians yesterday, and I deal 
with these issues on the Health Subcommittee of Commerce, of course, as 
we try to bring IT, and try to figure out a standard in order to perfect 
these electronic medical records for our country.  And trying to do that 
in a competitive marketplace, not easy, I just want you to know.  And I 
tried to share with them the challenges of just trying to get DoD and VA 
to be able to cooperatively work together.  It was a great 
disappointment that the Department of Defense--in particular, Dr. 
Winkenwerder--would not turn to the VA and use our standard.  That was 
very disappointing to me.  I have had my challenges with Dr. 
Winkenwerder.  I respect him.  He is a smart man.  We have got to be 
able to work through this. But if we can't even get it right, how are we 
going to expect, as a society, for us to get it right?


And I assure you that I do not want the federal government to select a 
standard out there.  If you want us to get it wrong, government can 
choose a standard.  I mean, we are right now in what I would call the 
Beta-VHS war.  And I assure you, if you had asked the government to 
solve that one, we would have had Beta.  So I just want you to know, 
there are some big issues that are going on out there.


I also am very pleased--some of you know, I have worked with the Olympic 
Committee for the last six years; not only in the reorganization of the 
Olympic Committee.  That gave me a lot of great insights, and a lot of 
great contacts.  Not only with these great athletes, but also the 
leadership.  And to extend that into the Paralympic movement, and bring 
those veterans into cooperation with the Olympic Committee, there are a 
lot of great success stories.  And I really get goose bumps by what is 
happening out there.  We have over 320 of our disabled veterans have 
participated in four of the Paralympic summits.  Ten of these athletes 
have been identified as superior athletes at the highest level.  So I 
just wanted to give you an update on that.  I am really pleased about 
that progress.


I do need your help.  And it is not just me.  It is Mr. Filner, myself, 
Chairman Brown; this Committee needs your help.  We can't even hope to 
perfect seamless transition if we can't even get the VA to centralize 
its information technology architecture.  And this is a huge challenge.  
It is very easy to be critical of them, but please, I am asking you to 
engage with us in a constructive dialogue whereby we can move from the 
decentralized model to centralized.  We can preserve incubators of 
initiative.  But we have got to do that, and at some point, we have to 
be able to bring in the software development into the centralization, 
and empower our CIO and CISO.  Very, very important.  And I need your 
help and assistance to do that.


So when this Committee moved out last year and wanted to do that, we 
weren't crazy after all.  And the rest of the government is looking.  
And hopefully, we can do this.  Mr. Filner and I, next week, will go to 
the floor and we will pass our product that we worked, after our six 
months of effort and oversight, and I am most hopeful that--we were 
stonewalled by the Senate in the last year--they will recognize that we 
have a great investment in this issue, and knowledge, and respect that.  
And I want to work with them.


They work on issues that we don't work on.  We can't cover the entire 
waterfront.  As you know, it is a vast enterprise in front of us.  So 
there has to be some give-and- take back-and-forth here and between the 
Senate.


So as we move into the spring, I just ask all of you to help us with the 
IT issues.  They are not sexy.  They don't get all the attention.  You 
know, they are not feel-good issues.  But they are so vital, and they 
are so important. So I am asking for your help and assistance in that.


With regard to adaptive housing, I want to continue to work with you.  
We recognize that we took on those issues to liberalize those standards.  
I know Ms. Herseth has some issues out there.  But my commitment is, as 
we go into next year's bill, is take another look at that.


One of the really good byproducts of these hearings that we are doing 
here over the next two days is we take this, we assimilate the 
information, and we create a marker.  And with that marker, then as I 
work with OMB and the VA.  This is a new process that has not been done 
before.


And like anything anew, some people don't like to change.  So I embrace 
what you said, Commander.  You don't like it.  But you know, what I have 
done is I embraced exactly what I shared with you yesterday when I had 
that phone conversation with Commander Bock, and he said, `` You know, 
we separated ourselves from the rest, and we wanted to put them ahead of 
time.''   I embrace that.  And I also like that look-back/look-ahead.  
And that is what we have done here, to lay a marker.


And so I want to thank you for your testimony.  We will receive the 
testimony of 21 VSOs and MSOs.  And it will be that thick.  And I assure 
you, I will share it with Mr. Portman.


There was one other--Mr. Filner, if you have anything left I will let 
you go, because I know I have one that is just--


Mr. Filner.  Mr. Rowan, I just want to make sure that if he is Mr. 
Buyer, I am Mr. Filner, okay?  I want to point out for the record that 
it is the first time in his career--he said it about third sentence to 
the end, the transcript will say it--he wanted to `` liberalize the 
restrictions.''  So he is moving in our direction.  Thank you so much.


The Chairman.  You are not going to make it as a comedian, okay?


You know, I am drawing a blank.  Oh, this is the question I wanted to 
ask, to the American Legion: of your 220 resolutions, did any of them 
address the issue on information management?


Mr. Morin.  Yes.


The Chairman.  Okay.  Well, I will get them all.  I just want to make 
sure there were--


Mr. Morin.  There were several, and we will have that package to you.  
Yes, there was.


The Chairman.  Okay.  All right, very good.


Well, the last thing I would like to say is, is I want to thank you for 
this program.  It is really something all of us can do.  And that is, we 
do it in many different capacities, and that is embracing our fellow 
veterans and loved ones when they come home.  And it is a huge 
challenge. We all have to do it.  I adopted a couple of them when they 
had come home.  And so we all do that.  Very important.


So I want to thank you.  And so to those individuals that we also 
recognize, whereby the certain concerns that aren't readily identified 
come up later, we pick that up through our fellowship.  And we can then 
circulate them back into the system.  So congratulations, Commander.  
This will be a wonderful program.


Mr. Morin.  Thank you.


The Chairman.  With that, I want to thank you for your testimony, and I 
appreciate your being here.  We will continue our vigilance.


All members have five legislative days to submit any statements for the 
record.  The hearing is now adjourned.


[Whereupon, at 3:06 p.m. the hearing was adjourned.]

</pre></body></html>
